The Federal Deposit Insurance Corporation (FDIC) is an
independent agency created by the Congress to maintain
stability and confidence in the nation’s banking system
by insuring deposits, examining and supervising financial
institutions, and managing receiverships. Approximately
4,560 individuals within seven specialized operating
divisions and other offices carry out the FDIC mission
throughout the country. According to most current FDIC
data, the FDIC insured $4.23 trillion in deposits for
8,626 institutions, of which the FDIC supervised 5,210.
The Corporation held insurance funds of $51.2 billion to
ensure depositors are safeguarded.
title page
                                                                                                                Inspector
                                                                                                                General’s
                                                                                                                Statement




                                                                    I I am pleased to present the results of
                                                                    my office for the period April 1, 2007
                                                                    –September 30, 2007. Our Fiscal
                                                                    Year 2007 Performance Report is also
                                                                                                                   established by the Comptroller
                                                                                                                   General and complied with the
                                                                                                                   system of quality control to provide
                                                                                                                   reasonable assurance of conforming to
                                                                    included as part of this semiannual            Government Auditing Standards and
                                                                    report to show our progress in meeting         OA policies and procedures.
                                                                    annual performance goals.                        Our Office of Evaluations issued
                                                                      During the past 6 months, we                 several reports and continued its efforts
                                                                    issued 12 audit and evaluation                 to provide management consulting
                                                                    reports to management. Among                   services by conducting several
                                                                    those, in accordance with the Federal          management-requested assignments.
                                                                    Information Security Management                One such assignment related to the
                                                                    Act (FISMA), we reported the results           Corporation’s classification of costs in
                                                                    of our review of the Corporation’s             its New Financial Environment system,
                                                                    information security program and               and another examined risk designation
                                                                    practices. We noted that the Federal           levels for the Corporation’s information
                                                                    Deposit Insurance Corporation (FDIC)           technology staff. At the end of the
                                                                    had made significant progress in               reporting period, the Evaluations
                                                                    recent years in addressing information         group was embarking on a compre-
                                                                    security provisions of the FISMA and           hensive assignment requested by
                                                                    the National Institute of Standards            the Chairman of the FDIC related to
                                                                    and Technology, but we outlined                information technology procurement
                                                                    steps that the Corporation could               and governance practices.
                                                                    take to strengthen controls in certain           We achieved many successful
                                                                    priority areas. As is the practice in the      outcomes from our investigations over
                                                                    Inspector General community, our               the past 6 months, and are reporting
                                                                    Office of Audits (OA) was also subject         over $40 million in total fines,
                                                                    to a peer review, and those results            restitution, and monetary recoveries.
                                                                    were positive. The Department of State         Several significant mortgage fraud
                                                                    Office of Inspector General (OIG)              cases that my office undertook in
                                                                    conducted the review and issued an             partnership with the Federal Bureau
                                                                    unmodified opinion, indicating that            of Investigation and U.S. Attorneys’
                                                                    OA had designed its system of quality          Offices resulted in stiff penalties for
                                                                    control in accordance with standards           the offenders. To illustrate, in a case

 Office of Inspector General – Semiannual Report to the Congress                               Office of Inspector General – Semiannual Report to the Congress 
that was referred to us by the FDIC
Division of Supervision and Consumer
Protection in Atlanta, involving a
complex $11 million fraud scheme,
the former senior vice president of
nBank, Commerce, Georgia, was
sentenced to 97 months of incar-
ceration. Two mortgage brokers were
also sentenced–one to 51 months
                                                  aligning our resources in this fashion
                                                  will strengthen our collaborative efforts
                                                  and greatly benefit the public, the
                                                  banking industry, and the FDIC.
                                                    Our vision is to be a quality-focused
                                                  FDIC team that promotes excellence
                                                  and trust in service to the Corporation
                                                  and the public interest. I am grateful
                                                                                              colleague from the Division of
                                                                                              Resolutions and Receiverships
                                                                                              in Dallas; several Special
                                                                                              Agents from the Federal
                                                                                              Bureau of Investigation; and
                                                                                              two Assistant U.S. Attorneys;
                                                                                              John and Patrick recently
                                                                                              received an Award for
                                                                                              Excellence from the Inspector
                                                                                                                                  IG
                                                                                                                                  Strategic Goal Areas
                                                                                                                                  Supervision: Assist the FDIC to Ensure the Nation’s
                                                                                                                                                                                       Table of Contents




                                                                                                                                  Inspector General’s Statement.................................................................... 3
                                                                                                                                  Abbreviations and Acronyms....................................................................... 6
                                                                                                                                  Highlights and Outcomes............................................................................ 7



                                                                                                                                        Banks Operate Safely and Soundly......................................................11
                                                  for the support that we receive from
and the other to 41 months of incar-                                                          General community. Their            Insurance: Help the FDIC Maintain the Viability of the Insurance Funds........... 29
                                                  the Chairman, the Vice Chairman, and
ceration for their role in the fraud.             other senior leadership at the FDIC as      outstanding efforts culminated      Consumer Protection: Assist the FDIC to Protect Consumer Rights
In another case involving securities              we make that vision a reality. We are       in the prosecution of three                  and Ensure Customer Data Security and Privacy............................ 34
fraud, a former Wall Street executive             also engaged in productive dialogue         individuals whose fraud
and a co-conspirator were sentenced                                                                                               Receivership Management: Help Ensure that the FDIC is Ready
                                                  with congressional staff regarding          scheme resulted in the failure
in a $12 million bank securities fraud                                                                                                          to Resolve Failed Banks and Effectively
                                                  our ongoing and planned work and            of Universal Federal Savings
conspiracy. They were sentenced to                                                                                                              Manages Receiverships.......................................................... 39
                                                  appreciate their feedback and interest      Bank, Chicago, Illinois. The
24 months and 18 months of incarcer-              in our office. Similarly we benefit from    successful results of this white-   Resources Management: Promote Sound Governance and Effective
ation, respectively, and were ordered             the experiences of our colleagues in        collar crime case came about                    Stewardship and Security of Human, Financial,
to pay back nearly all of that amount             the Inspector General community, as         because of the dedication                       Information Technology, and Physical Resources........................ 43
as restitution to the government.                 evidenced by a recent Best Practices        of a number of individuals          OIG Internal Processes: Build and Sustain a High-Quality
  Given the growing investigative                 Exchange that we attended at the            from different agencies                         OIG Work Environment............................................................ 51
caseload that we are handling and                 Tennessee Valley Authority OIG and          determined to work together
                                                  by our coordination with the OIGs           to protect the integrity of the     Fiscal Year 2007 Performance Report....................................................... 57
the benefits that we derive from our
close working relationships with the              of the Board of Governors of the            nation’s banking system. They       Reporting Requirements............................................................................ 64
Corporation, I determined that it                 Federal Reserve System, Department          can take great pride in that
                                                                                                                                  Information Required by the Inspector General Act of 1978,
would be in the FDIC’s best interest              of the Treasury, and National Credit        accomplishment.
                                                                                                                                  as amended............................................................................................... 65
to expand the OIG’s investigative                 Union Administration in sponsoring an
presence, with a goal toward estab-               Emerging Issues Symposium here at                                               Farewells . ................................................................................................. 71
lishing offices within each Division of           the FDIC in November that will focus
                                                                                                                                  Congratulations......................................................................................... 72
Supervision and Consumer Protection               on issues that challenge us all.
region. Our investigative agents are               Finally, I congratulate FDIC OIG            Jon T. Rymer
currently located only in Washington,             Special Agents John Lucas and Patrick        Inspector General
D.C. headquarters, Atlanta, Dallas,               Collins. Along with Financial Crimes         October 31, 2007
and Chicago. I am confident that                  Specialist Steven Hall, an FDIC

 Office of Inspector General – Semiannual Report to the Congress                                                                                                     Office of Inspector General – Semiannual Report to the Congress 
Abbreviations and                                                                                                          Highlights and
Acronyms                                                                                                                   Outcomes




  APP
  BSA
  CACI
  COBIT©
  COSO
  CRA
  DE
               annual performance plan
               Bank Secrecy Act
               CACI Dynamic Systems, Inc.
               Control Objectives for Information and Related Technology
               Committee of Sponsoring Organizations
               Community Reinvestment Act
               Dedicated Examiner
                                                                           T The OIG’s 2007 Business Plan contains
                                                                           five strategic goals that are closely
                                                                           linked to the FDIC’s mission, programs,
                                                                           and activities, and one that focuses
                                                                                                                               With respect to investigative work,
                                                                                                                             as a result of cooperative efforts with
                                                                                                                             U.S. Attorneys throughout the country,
                                                                                                                             numerous individuals were prosecuted
  DIT          Division of Information Technology                          on the OIG’s internal business and                for financial institution fraud, and we
  DRR          Division of Resolutions and Receiverships                   management processes. These highlights            achieved successful results in combating
  DSC          Division of Supervision and Consumer Protection             show our progress in meeting these                a number of mortgage fraud schemes.
  ECU          Electronic Crimes Unit
                                                                           goals during the reporting period. A              Particularly noteworthy results include
  FBA          federal banking agencies
  FBI          Federal Bureau of Investigation                             more in-depth discussion of OIG audits,           the stiff sentencings of the former senior
  FCB          First Citizens Bank                                         evaluations, investigations, and other            vice president of mortgage operations
  FDIC         Federal Deposit Insurance Corporation                       activities in pursuit of these goals follows.     at nBank and two mortgage brokers
  FISMA        Federal Information Security Management Act
  FRB          Board of Governors of the Federal Reserve System                                                              for defrauding the bank. In another
  GPRA         Government Performance and Results Act of 1993              Strategic Goal 1                                  case, a defendant was convicted in
  HMDA         Home Mortgage Disclosure Act                                Supervision: Assist the FDIC to                   an $11 million mortgage loan fraud
  ILC          industrial loan company                                     Ensure the Nation’s Banks                         in New York. Another of our inves-
  IPO          initial public offering
  ITAS         Information Technology Application Services                 Operate Safely and Soundly                        tigations led to the convictions of a
  IT           Information Technology                                        Our work in helping to ensure that              former Wall Street executive and a co-
  LIDI         Large Insured Depository Institutions                                                                         conspirator in a $12 million securities
  NSC          NSC Servicing
                                                                           the nation’s banks operate safely and
                                                                           soundly takes the form of audits, inves-          fraud conspiracy. These individuals were
  OA           Office of Audits
  OCC          Office of the Comptroller of the Currency                   tigations, evaluations, and extensive             ordered to pay back nearly all of that
  OE           Office of Evaluations                                       communication and coordination                    amount in restitution to the government.
  OERM         Office of Enterprise Risk Management                                                                          The Office of Investigations also
  OFAC         Office of Foreign Assets Control
                                                                           with FDIC divisions and offices, law
  OI           Office of Investigations                                    enforcement agencies, other financial             continued its close coordination
  OIG          Office of Inspector General                                 regulatory OIGs, and banking industry             and outreach with the Division of
  OMB          Office of Management and Budget                             officials. During the reporting period,           Supervision and Consumer Protection
  OTS          Office of Thrift Supervision                                                                                  (DSC), the Division of Resolutions and
  PAR          performance and accountability report
                                                                           we continued work on the FDIC’s
  PCIE         President’s Council on Integrity and Efficiency             evaluation of institution compliance              Receiverships (DRR), and the Legal
  PIA          privacy impact assessments                                  with the anti-money laundering and                Division by way of attending quarterly
  PII          personally identifiable information                         terrorist financing provisions of the USA         meetings, regional training forums,
  SCS          San Clemente Securities, Inc.                                                                                 and regularly scheduled meetings with
                                                                           PATRIOT Act. We are also auditing
  SNC          shared national credit
  TSP          technology service provider                                 examination procedures for assessing              DSC and the Legal Division to review
  UCC          United Custodial Corporation                                controls to protect customer and                  Suspicious Activity Reports and identify
                                                                           consumer information at multi-regional            cases of mutual interest. (See pages
                                                                           data processing servicers.                        11-28.)

6 Office of Inspector General – Semiannual Report to the Congress                                         Office of Inspector General – Semiannual Report to the Congress 7
Strategic Goal 2                                  Strategic Goal 3                          Strategic Goal 4                             Strategic Goal 5
Insurance: Help the FDIC                          Consumer Protection: Assist the           Receivership Management:                     Resources Management:
Maintain the Viability of the                     FDIC to Protect Consumer Rights           Help Ensure that the FDIC                    Promote Sound Governance
Insurance Funds                                   and Ensure Customer Data                  is Ready to Resolve Failed                   and Effective Stewardship and
  Audit work related to the FDIC’s                Security and Privacy                      Banks and Effectively Manages                Security of Human, Financial, IT,
dedicated examiner program                          Audits and investigations contributed   Receiverships                                and Physical Resources
confirmed that the Corporation’s                  to the FDIC’s protection of consumers       We completed an assignment to                Of note with respect to this strategic
Dedicated Examiner Program is                     in several ways. We issued a report       evaluate the design and implemen-            goal, we issued the results of our review
contributing to the FDIC’s efforts to             on the FDIC’s assessment of insti-        tation of selected controls established      of the FDIC’s information security
assess and quantify the risks posed               tutions’ compliance management                                                         program and practices, in accordance
                                                                                            by DRR to safeguard sensitive
by large institutions to the Deposit              systems, reporting that FDIC examiners    information collected and maintained         with the Federal Information Security
Insurance Fund. Given that the FDIC               had adequately assessed the key           in electronic form in resolution and         Management Act (FISMA). Our
is not generally the primary federal              components of institution compliance
                                                                                            receivership activities at FDIC-insured      report notes strength in the areas
regulator for the largest financial               management systems–the board of
                                                                                            institutions. We made four recommen-         of information security governance,
institutions, this program has placed             directors and management oversight,
                                                                                            dations to address vulnerabilities, and      incident response, and awareness
dedicated examiners in the six largest            the compliance program, and periodic
                                                                                            the Corporation took prompt action           training. It also identifies steps the
insured depository institutions to work           compliance audits.
in cooperation with primary supervisors                                                     in response. We also continued to            Corporation can take to strengthen
                                                    From an investigative standpoint,       monitor the FDIC’s Strategic Readiness       security controls in the priority areas
and bank personnel to obtain real-
                                                  our Electronic Crimes Unit responded      Project. We continued to pursue              of access control; identification and
time access to information about the
                                                  to Internet-based schemes where           concealment of assets investigations         authentication; certification, accredi-
risk and trends in those institutions.
                                                  the FDIC and OIG Web sites were           related to the more than $1.7 billion        tation, and security assessments; risk
Similarly, we reported positive results
                                                  misused to entice consumers to divulge    in criminal restitution that the FDIC        assessment; personnel security; and
related to the Shared National Credit
                                                  personal information and successfully     is owed. In connection with one such         audit and accountability. In a related
program, an interagency program to
                                                  shut down a Web site used for such        case, during the reporting period a          FISMA product, we reported that
provide periodic credit risk assessment
                                                  purposes. The Electronic Crimes Unit      debtor made a restitution payment            the FDIC continues to take action to
of large, complex credits held or
                                                  was also successful in working with the   of more than $348,000. (See pages            safeguard its personally identifiable
agented by supervised institutions. (See
                                                  Corporation to deactivate Web sites       39-42.)                                      information and related systems. We
pages 29-33.)
                                                  involving fraudulent claims of FDIC                                                    issued several audit and evaluation
                                                  insurance or affiliation. (See pages                                                   reports in this goal area and made
                                                  34-38.)                                                                                suggestions to improve the information
                                                                                                                                         technology (IT) application services
                                                                                                                                         contracting process and recom-
                                                                                                                                         mendations to enhance the FDIC’s
                                                                                                                                         performance measurement processes.
8 Office of Inspector General – Semiannual Report to the Congress                                                     Office of Inspector General – Semiannual Report to the Congress 9
 We also promoted integrity in FDIC                Investigations conducted internal quality
 internal operations through ongoing               control reviews of the Chicago and                                                                                     Strategic Goal 1:
 OIG Hotline referrals, investigations of          Dallas Office investigative operations.
 employee cases, and coordination with             Office of Audits continued its work to                                                                                 Supervision: Assist
                                                   revise audit policies and procedures to
 the FDIC’s Ethics Office. (See pages
 43-50.)                                           address changes in the 2007 revision                                                                                   the FDIC to Ensure
 Strategic Goal 6
                                                   to Government Auditing Standards
                                                   and process changes resulting from
                                                                                                                                                                          the Nation’s Banks
 OIG Internal Processes: Build                     an internal assignment management
                                                   review. To ensure cost-effective and
                                                                                                                                                                          Operate Safely and
 and Sustain a High-Quality OIG
 Work Environment                                  secure IT, we continued to coordinate                                                                                  Soundly
                                                   closely with the FDIC’s Division of
   We continued to focus on a number               Information Technology. We completed
 of activities in this goal area during            a laptop replacement project in OIG




                                                                                                                                B
 the past 6 months. We encouraged                  headquarters and field offices. We also
 individual growth through professional            continued to refine the OIG’s training
 development by way of initiatives such            system and updated the OIG’s internal
 as training and development and                   Business Plan 2007 Dashboard to                                               Bank supervision is fundamental to           regulator. The FDIC must establish
 career development plans for OIG                  capture progress on achievement of                                           the FDIC’s efforts to ensure stability        and maintain effective controls in
 staff, expanding the OIG mentoring                strategic and performance goals. (See                                        and public confidence in the nation’s         its processes for granting insurance
 program, and offering opportunities for           pages 51-56.)                                                                financial system. As of September             to, supervising, and examining
 OIG staff to attend graduate schools
                                                                                                                                30, 2007, the FDIC was the primary            ILCs, taking into consideration the
 of banking. We also strengthened
                                                                                                                                federal regulator for 5,210 FDIC-             relationship between the ILC and its
 human capital management and
 leadership development by imple-                   Significant Outcomes                                                        insured, state-chartered institutions         parent company and the effect of
 menting end-of-assignment feedback                 (April 2007 - September 2007)                                               that were not members of the Board            such a relationship on the ILC. This is
 mechanisms for staff, disseminating                Audit and Evaluation Reports Issued                                   12    of Governors of the Federal Reserve           especially important when the ILC’s
 information on leadership training                 Nonmonetary Recommendations                                            7    System (FRB) (generally referred to           parent company is not subject to the
 and development, and updating                                                                                                  as "state non-member" institutions).          scope of consolidated supervision,
                                                    Investigations Opened                                                 25
 the OIG’s business continuity and                                                                                              The Department of the Treasury (the           consolidated capital requirements,
                                                    Investigations Closed                                                 23
 emergency preparedness plans and                                                                                               Office of the Comptroller of the              or enforcement actions imposed on
                                                    OIG Subpoenas Issued                                                   7                                                  parent organizations subject to the
 procedures. Our office continued to                                                                                            Currency (OCC) and the Office of
 foster positive stakeholder relationships
                                                    Judicial Actions:                                                           Thrift Supervision (OTS)) or the FRB          Bank Holding Company Act.
                                                    Indictments/Informations                                              40    supervise other banks and thrifts,
 by way of OIG executives’ meetings                                                                                                                                             In recent years, the banking industry
 with FDIC executives; presentations at             Convictions                                                           22    depending on the institution’s charter.       has been marked by consolidation,
 Audit Committee meetings; congres-                 Arrests                                                               21    The Corporation also has back-up              globalization, and the development
 sional interaction; and coordination               OIG Investigations Resulted in:                                             examination authority to protect the          of increasingly complex investment
 with financial regulatory OIGs, other              Fines of                                                        $113,300    interests of the deposit insurance fund       strategies available to banks. Bank
 members of the Inspector General                   Restitution of                                                 $5,182,759   for more than 3,416 (as of June 30,           regulators, both domestically and
 community, other law enforcement                   Asset Forfeiture of                                           $35,073,434
                                                                                                                                2007) national banks, state-chartered         internationally, have devised new
 officials, and the Government                                                                                                  banks that are members of the FRB,            standards for bank capital require-
                                                    Other Monetary Recoveries of                                    $348,314
 Accountability Office. Members of                                                                                              and savings associations.                     ments commonly referred to as
                                                    Total                                                         $40,717,807
 the OIG Employee Advisory Group                                                                                                                                              Basel IA and Basel II. The FDIC and
                                                    Cases Referred to the Department of Justice (U.S. Attorney)           30      Another important aspect of the
 continued their quarterly meetings                                                                                                                                           the other bank regulators continue
                                                                                                                                FDIC’s supervisory responsibilities
 with the Inspector General, and we                 Cases Referred to FDIC Management                                      1                                                  to assess the potential impact of
                                                                                                                                relates to industrial loan companies
 maintained and updated the OIG                     OIG Cases Conducted Jointly with Other Agencies                      113                                                  new standards on bank safety and
                                                                                                                                (ILCs). The FDIC is the primary federal
 Web site to provide easily accessible              Hotline Allegations Referred                                          97                                                  soundness.
                                                                                                                                regulator for a number of ILCs,
 information to parties interested in our           Proposed Regulations and Legislation Reviewed                          3
 office and the results of our work.                                                                                            which are limited-charter depository            The FDIC has adopted a risk-focused
                                                    Proposed FDIC Policies Reviewed                                       17    institutions. ILCs may be owned by            approach to examining financial insti-
  Our Office of Audits underwent a peer             Responses to Requests and Appeals under the Freedom of                 2    commercial firms and these parents            tutions to minimize regulatory burden
 review conducted by the Department                 Information Act                                                             may not be subject to consolidated            and direct its resources to those
 of State OIG, and our Office of                                                                                                supervision by a federal banking              areas that carry the greatest potential

10 Office of Inspector General – Semiannual Report to the Congress                                                                                       Office of Inspector General – Semiannual Report to the Congress 11
 risk. The FDIC must also ensure that              institutions for compliance with the         crime that involve financial institu-               • Assist FDIC efforts to detect
 financial institutions have adequate              Bank Secrecy Act (BSA). The BSA              tions. Misuse and misappropriation of                 and prevent BSA violations,
 corporate governance structures                   requires financial institutions to           personal information have emerged                     money laundering, terrorist
 relative to the bank’s size, complexity,          keep records and file reports on             as major developments in financial                    financing, fraud, and other
 and risk profile to prevent financial             certain financial transactions. FDIC-        crime. Despite generally strong                       financial crimes in FDIC-
 losses and maintain confidence in                 supervised institutions must establish       controls and practices by financial                   insured institutions.
 those entrusted with operating the                and maintain procedures to ensure            institutions, methods for stealing
                                                                                                                                              OIG Work in Support of Goal 1
 institutions. The FDIC’s follow-up                and monitor compliance with BSA              personal data and committing fraud
 processes must be effective to ensure             requirements. An institution’s level of      with that data are continuously                 The OIG’s Office of Audits had
 institutions are promptly complying               risk for potential money laundering          evolving.                                     several audits ongoing at the end of
 with supervisory actions that arise as            determines the necessary scope of the                                                      the reporting period in the Supervision
                                                                                                  The OIG’s role under this strategic         area in furtherance of our safety
 a result of the FDIC’s examination                BSA examination. In a related vein,          goal is conducting audits and
 process.                                          the U.S. Department of the Treasury’s                                                      and soundness-related goal. These
                                                                                                evaluations that review the effec-            included a limited review of the FDIC’s
   The Corporation is also faced                   Office of Foreign Assets Control             tiveness of various FDIC programs             oversight of subprime credit card
 with developing and implementing                  (OFAC) promulgates, develops, and            and examination processes aimed at            lending at FDIC-supervised institutions.
 programs to minimize the extent to                administers economic and trade               providing continued stability to the          Subprime lending refers to programs
 which the institutions it supervises are          sanctions such as trade embargoes,           nation’s banks. Another major means           that target borrowers with weakened
 involved in or the victims of financial           blocked assets controls, and other           of achieving this goal is through inves-      credit histories typically charac-
 crimes and other abuse. Increased                 commercial and financial restrictions        tigations of fraud at FDIC-supervised         terized by payment delinquencies,
 reliance by both financial institutions           under the provisions of various laws.        institutions; fraud by bank officers,         previous charge-offs, judgments, or
 and non-financial institution lenders             Generally OFAC regulations prohibit          directors, or other insiders; fraud
                                                                                                                                              bankruptcies. Over the years, subprime
 on third-party brokers has also                   financial institutions from engaging in      leading to the failure of an institution;
                                                                                                                                              lending volumes have increased
 allowed opportunities for increased               transactions with the governments of,        fraud impacting multiple institutions;
                                                                                                                                              significantly. We intend to issue a
 real-estate frauds, including property            or individuals or entities associated        and fraud involving monetary losses
                                                                                                                                              memorandum providing our observa-
 flipping and other mortgage frauds.               with, foreign countries against which        that could significantly impact the
                                                                                                                                              tions on subprime credit card lending
 Examiners must be alert to the                    federal law imposes economic                 institution.
                                                                                                                                              activities.
 possibility of such fraudulent activity           sanctions. Sanctions can also be used         To assist the FDIC to ensure the
 in financial institutions–it is purposeful        against international drug traffickers,                                                      Another assignment in this area
                                                                                                nation’s banks operate safely and
 and often hard to detect.                         terrorists, or foreign terrorist organiza-                                                 relates to implementation of the
                                                                                                soundly, the OIG’s 2007 performance
                                                   tions, regardless of national affiliation.                                                 USA PATRIOT Act. We conducted
   Part of the FDIC’s overall respon-                                                           goals were as follows:
                                                                                                                                              audit work to determine whether
 sibility and authority to examine                  In its role as supervisor, the FDIC              • Protect and ensure the                 examination procedures are designed
 banks for safety and soundness is the             also analyzes data security threats,                effectiveness and efficiency of        to evaluate institution compliance with
 responsibility for examining state-               occurrences of bank security                        the FDIC’s Supervision                 the anti-money laundering and terrorist
 chartered non-member financial                    breaches, and incidents of electronic               Program, and                           financing provisions of the Act and

12 Office of Inspector General – Semiannual Report to the Congress                                                         Office of Inspector General – Semiannual Report to the Congress 13
 whether those procedures are fully and            customers themselves are principals in                                       Bank Officer and Mortgage Brokers               In a related action, on August 17,
 consistently implemented to provide               fraudulent schemes.                                                          Sentenced in $11 Million Bank Fraud on        2007, two mortgage brokers and
                                                                                                                                nBank
 reasonable assurance that institu-                                                                                                                                           their companies were sentenced in
                                                     The cases discussed below are illus-
 tions with weak programs for detecting                                                                                          The OIG’s ongoing investigation              the Northern District of Georgia. One
                                                   trative of some of the OIG’s success
 money laundering and terrorist                                                                                                of mortgage fraud schemes orches-              of the mortgage brokers, also a co-
                                                   in pursuing strategic goal 1 during the
 financing activity will be identified                                                                                         trated by multiple subjects operating          owner of Southern Lenders Mortgage
                                                   reporting period. These cases reflect                                       in Georgia, Florida, Texas, South
 and appropriate corrective measures                                                                                                                                          Corporation (Southern Lenders),
                                                   the cooperative efforts of OIG investi-                                     Carolina, North Carolina, and Nevada
 imposed.                                                                                                                                                                     Newman, Georgia, was sentenced to
                                                   gators, FDIC divisions and offices, U.S.                                    has resulted in stiff penalties for the        51 months of incarceration, 3 years of
   Other work is focusing on the FDIC’s            Attorneys’ Offices, and others in the                                       offenders. We initiated the following          supervised release, and was ordered
 assessment of commercial real estate              law enforcement community.                                                  investigation based on a referral from         to pay restitution in the amount of
 concentration risk, the Division of                                                                                           DSC’s Atlanta Regional Office. Several
                                                     Our office has investigated a number                                                                                     $3.5 million. Southern Lenders was
 Supervision and Consumer Protection’s                                                                                                      FDIC-regulated institu-
                                                   of mortgage fraud cases over the                                                                                           sentenced to 5 years of probation and
 (DSC) examination assessment of                                                                 “This case involved the defrauding         tions have been victimized
                                                   past 6 months, several of which are                                                                                        also ordered to pay restitution in the
 interest rate risk, and examination                                                           of a federally insured bank by various       in these mortgage fraud
                                                   described below. According to the                                                                                          amount of $3.5 million. In December
 procedures for assessing controls                                                             mortgage brokers, aided by an insider schemes.
                                                   Federal Bureau of Investigation (FBI),                                                                                     2006, the mortgage broker and his
 to protect customer and consumer                                                              who was an officer at the bank. The
                                                   mortgage fraud is one of the fastest                                                       On August 9, 2007, the          company, Southern Lenders, pleaded
 information at multiregional data                                                             integrity of the banking system and
                                                   growing white-collar crimes. Such                                                        former senior vice president      guilty to one count of bank fraud
 processing servicers. We will report                                                          soundness of the lending industry
                                                   illegal activity can cause financial ruin                                                of mortgage operations at         for their role in defrauding nBank of
 the results of these efforts in our next                                                      is of importance to all citizens.
                                                   to homeowners and local communities.                                                     nBank, an OCC-regulated           approximately $3.7 million.
 semiannual report.                                                                            Along with the FBI and the Office of
                                                   It can further impact local housing                                                      institution in Commerce,
                                                                                               Inspector General for the FDIC, we                                               To carry out the fraud, this first
 Successful OIG Investigations                     markets and the economy at large.                                                        Georgia, was sentenced
                                                                                               will investigate and prosecute major                                           mortgage broker, acting on behalf
 Uncover Financial Institution                     Mortgage fraud can take a variety of                                                     in the U.S. District Court
                                                                                               frauds against our federally insured                                           of Southern Lenders, submitted and
 Fraud                                             forms and involve multiple individuals,                                                  for the Northern District
                                                                                               banking system.”                                                               received short-term funding for
                                                   as shown in the write-ups that follow.                                                   of Georgia to 97 months
   The OIG’s Office of Investigations’                                                                                                                                        34 loans totaling approximately
                                                                                                United States Attorney David E. Nahmias       of incarceration, to be
 work focuses largely on fraud that                  Other significant cases during the                                                                                       $3.7 million from nBank. These 34
                                                                                                                                              followed by 3 years of
 occurs at or impacts financial institu-           reporting period involve securities                                                                                        loans were placed on Southern Lenders’
                                                                                                                                              supervised release. A
 tions. The perpetrators of such crimes            fraud, obstruction of an FDIC                                                                                              Warehouse line of credit at nBank.
                                                                                                                                restitution hearing will be scheduled
 can be those very individuals entrusted           examination, embezzlement, money                                             at a later date. In December 2006,            The loans were subsequently sold by
 with governance responsibilities at the           laundering, and bank fraud. The                                              the former senior vice president was          Southern Lenders to several investors
 institutions–directors and bank officers.         OIG’s success in all such investigations                                     charged and pleaded guilty to a one-          on the secondary market. In the normal
 In other cases, individuals providing             contributes to ensuring the continued                                        count criminal information charging him       course of business, when such loans are
 professional services to the banks,               safety and soundness of the nation’s                                         with defrauding nBank of between $7.5         sold, the investors would wire the loan
 others working inside the bank, and               banks.                                                                       and $11 million.                              proceeds, and the bank would have

14 Office of Inspector General – Semiannual Report to the Congress                                                                                         Office of Inspector General – Semiannual Report to the Congress 15
 received the proceeds directly from the           time while the mortgage broker found      after being in business for over 103              Queens, New York. The subject loans
 investors. However, with the knowledge            qualified investors to purchase the       years, nBank ceased operations after              were funded by Fremont, Long Beach
 and consent of the former senior vice             loans.                                    selling its remaining net assets.                 Mortgage, Argent Mortgage, BNC
 president of mortgage operations                                                                                                              Mortgage, Lehman Brothers Bank,
                                                     The mortgage broker was unable to         Joint investigation by the FDIC OIG and FBI;
 at nBank, the end investors, at the                                                         prosecuted by the U.S. Attorney’s Office for      Webster Bank, Aurora Loan Services,
                                                   find qualified investors to purchase
 direction of the mortgage broker,                                                           the Northern District of Georgia.                 HSBC Bank, New Century Mortgage,
                                                   the 23 loans, and the loans became
 wire transmitted the loan proceeds                                                                                                            WMC Mortgage Corporation,
                                                   aged on the nBank books. In order to
 to a bank account in the name of the                                                                                                          American Home Mortgage, Alliance
                                                   remove the aged loans from the line of    Conviction in $11 Million Mortgage Loan
 mortgage broker, doing business as                                                                                                            Mortgage Banking Corporation, and
                                                   credit, the mortgage broker, again with   Scheme
 J.P. Enterprises.                                                                                                                             Equifirst Corporation. The arrests
                                                   the knowledge and at the direction
                                                                                               On September 7, 2007, in the                    were based on a criminal complaint
   On the same date, another mortgage              of the former senior vice president
                                                                                             U.S. District Court for the Eastern               alleging that the defendants partici-
 broker acting on behalf of Infinity               of mortgage operations at nBank,
 Mortgage, also licensed in the state              submitted 23 new loan packages            District of New York, one of the nine             pated in a mortgage fraud scheme
 of Georgia, was sentenced to 41                   that contained false and fraudulent       defendants in an on-going alleged                 in which straw buyers were recruited
 months of incarceration and 3 years of            information. The mortgage broker’s        scheme to defraud financial institu-              to purchase properties with false
 supervised release. Infinity Mortgage             "rolling" of the loans allowed nBank to   tions of more than $11 million in                 identities and false identification.
 was sentenced to 4 years of probation.            remove the aged loans from its books;     fraudulent mortgage loans pleaded                 Much of the information on the loan
 The amount of restitution has yet to              however, the 23 new loans eventually      guilty to conspiracy to commit bank               applications relating to the presumed
 be determined. In December 2006,                  were found to be fraudulent loans and     fraud. The subject mortgage loans                 borrowers’ employment and income
 this second mortgage broker and                   nBank wrote them off. The senior vice     were initiated through New Generation             was false. Further, the straw buyers
 his company, Infinity Mortgage, also              president knew of and participated in     Funding, LLP, (New Generation) and                falsely represented that the properties
 pleaded guilty to one count of bank               this "rolling" scheme with the mortgage   Exoro Funding. The defendant was                  they were purportedly buying were
 fraud for their role in defrauding nBank          broker and several other mortgage         previously indicted on charges of bank            going to be their primary residences
 of approximately $1.8 million in a                lenders.                                  fraud and conspiracy to commit bank               in an effort to induce the lenders to
 mortgage fraud scheme.                                                                      fraud. According to the indictment,               loan them 100 percent of the stated
                                                     nBank was a national bank regulated
                                                                                             the defendant presented false identi-             purchase price. Few, if any, payments
   This second mortgage broker,                    by the OCC. The FDIC declared
                                                                                             fication documents in March 2006 to               were ever made on the subject
 acting on behalf of Infinity Mortgage,            nBank critically undercapitalized in
 submitted and received short-term                 June 2006. In July 2006, the OCC          purchase property located in Jamaica,             mortgages.
 funding for 23 loans totaling approxi-            issued a Prompt Corrective Action         New York. The defendant was arrested
                                                                                                                                                 The defendant admitted that he
 mately $1.835 million from nBank.                 letter to nBank. In response to OCC’s     along with eight other men by FBI and
                                                                                                                                               and others submitted mortgage
 These 23 loans were placed in Infinity            letter, nBank sold several branch         FDIC OIG Special Agents on April 25,
                                                                                                                                               applications to the financial institu-
 Mortgage’s Warehouse line of credit               locations to raise capital. nBank was     2007.
                                                                                                                                               tions knowing that the applications
 at nBank. The loans were to stay on               unable to raise sufficient capital to      New Generation and Exoro Funding                 contained false identity information,
 the nBank line for a short period of              continue operations, and in June 2007,    are mortgage brokers with offices in              false credit information, false

16 Office of Inspector General – Semiannual Report to the Congress                                                          Office of Inspector General – Semiannual Report to the Congress 17
 employment information, and false                 arrested on charges of bank fraud                 18 months of incarceration to be             $12 million. Nearly all of that amount
 representations that the borrowers                and conspiracy to commit bank fraud.              followed by 2 years of supervised            is being forfeited to the government by
 intended to make the subject                       Joint investigation by the FBI and the FDIC      release and agreed to forfeit                the defendants.
 properties their primary residences.              OIG; prosecution is being handled by the          $802,241 to the government. As
                                                                                                                                                    The defendant admitted that
 The defendant also admitted that he               U.S. Attorney’s Office for the Eastern District   part of his plea agreement, the co-
                                                   of New York.                                                                                   beginning on or about December 29,
 employed straw buyers to present                                                                    conspirator pleaded guilty to one
                                                                                                                                                  1995 and continuing to on or about
 false identification at property closings                                                           count of conspiracy for his role in
 and to sign mortgage and real estate                                                                acting as a nominee in establishing          February 13, 2007, he implemented
                                                   Former Wall Street Executive and Co-                                                           a scheme to defraud various mutual
 transfer documents under false                    conspirator Sentenced in $12 Million Bank         accounts at banks where depositors
 identities.                                       Securities Fraud Conspiracy                       were defrauded. The co-conspirator           savings banks, including the FDIC-
                                                                                                     admitted that he traveled around the         insured and regulated Provident Bank,
   The information also charged that                 On August 3, 2007, in the U.S.                                                               headquartered in Jersey City, N.J.,
                                                   District Court for the District of New            country opening up accounts in his
 the defendant was a partner in a                                                                                                                 and New Haven Savings Bank (now
                                                   Jersey, a former member of the                    and the defendant’s name, using the
 fraudulent enterprise known as NSC                                                                                                               New Alliance Bank), headquartered in
                                                   Executive Committee and Director                  defendant’s money.
 Servicing (NSC). NSC held itself out                                                                                                             New Haven, Connecticut.
 as a holder and servicer of existing              of Research at New York-based                       The defendant admitted that he
 mortgages. As part of the scheme                  Oppenheimer & Company, Inc. was                   organized a complex scheme to                  The defendant also admitted that
 to defraud, NSC presented pay-off                 sentenced to 24 months of incar-                  circumvent applicable federal and            he directed his co-conspirators and
 letters to mortgage lenders at several            ceration, to be followed by 4 months              state banking regulations that require       others to open depository accounts
 real estate closings falsely claiming to          of home confinement as part of his                mutual banks to apportion shares             at, among other banks, Provident and
 be the servicer of the mortgages on               3-year term of supervised release. The            issued in IPOs to depositors, restrict       New Haven Savings that he identified
 the properties being sold. The closing            defendant was ordered to pay $11                  the maximum number of shares                 as likely to offer its depositors shares
 attorneys made the pay-off checks                 million in restitution that he agreed             offered to such depositors, and              in IPOs. Upon announcement by
 payable to NSC, and the defendant                 to forfeit to the government under                prevent depositors from transferring         Provident and New Haven Savings that
 and others negotiated the checks and              the terms of his plea agreement. The              their shares to other depositors.            they were offering shares to eligible
 kept the proceeds. The primary lien               defendant previously pleaded guilty                                                            depositors, the defendant directed
                                                                                                       A mutual bank is a bank owned by
 holders on the original mortgages                 to one count of conspiracy to commit                                                           his co-conspirators to complete stock
                                                                                                     depositors. The depositors are entitled
 were never paid.                                  securities fraud in connection with                                                            purchase order forms that falsely
                                                                                                     to have the first opportunity to buy
                                                   initial public offerings (IPO) involving                                                       represented that they were purchasing
   The defendant is in the United States                                                             shares in the bank when it converts
                                                   65 mutual banks in New Jersey,                                                                 the shares for their accounts, when,
 illegally and has been in custody since                                                             to a publicly traded company. By
                                                   Connecticut, and across the country.                                                           in reality, he was purchasing the
 his arrest. He is cooperating with the                                                              secretly and fraudulently amassing
                                                                                                                                                  shares with his own money for his own
 investigation. A sentencing date has               On the same date, one of the                     shares to which he was not entitled
                                                                                                                                                  benefit.
 not yet been set by the Court. On June            defendant’s co-conspirators, a retired            and selling them, the defendant and
 25, 2007, the grand jury indicted three           New York City school teacher and                  his co-conspirators defrauded eligible         The defendant further admitted
 of the other eight subjects previously            childhood friend, was sentenced to                depositors and the banks of more than        that he directed his co-conspir-

18 Office of Inspector General – Semiannual Report to the Congress                                                             Office of Inspector General – Semiannual Report to the Congress 19
 ators to either transfer the fraudu-               Defendants Sentenced in Connection with     bank reports, and continuing financial          exceeded the $100,000 per-account
 lently obtained shares to him using                BestBank Failure                            crimes enterprise in connection with            insurance limit.
 Ameritrade accounts, or sell the shares              On August 24, 2007, in the U.S.           the 1998 failure of BestBank, were                Joint investigation by the FDIC OIG, the FBI,
 on the open market and wire the                    District Court for the District of          each sentenced to 10 years in prison.           and the Internal Revenue Service Criminal
 proceeds to him.                                   Colorado, the former president              The judge ordered forfeitures of $11.6          Investigation Division; prosecuted by the U.S.
                                                    and director of BestBank, Boulder,          million for one of the owners and $11.7         Attorney’s Office for the District of Colorado.
   On September 24, 2007, in another
 investigation involving Provident                  Colorado, was sentenced to 90               million for the other owner.
 Bank, another defendant, a graduate                months of incarceration to be followed                                                      Former President of the Bank of Paxton
                                                                                                  From 1994 through July 1998, all of
 of Harvard Business School and an                  by 3 years of supervised release.                                                           Pleads Guilty to Bank Fraud and
                                                                                                these defendants jointly engaged in a
 Indiana businessman, involved in a                 The former chief financial officer was                                                      Obstruction of an FDIC Examination
                                                                                                business operation that made more
 very similar scheme of secretly and                sentenced to 72 months of incar-                                                              On July 26, 2007, in the U.S. District
                                                                                                than 500,000 BestBank credit card
 fraudulently amassing shares issued                ceration to be followed by 3 years of                                                       Court for the District of Nebraska, the
                                                                                                loans to subprime borrowers. Subprime
 in IPOs, pleaded guilty in the District            supervised release. The judge did not                                                       former president and loan officer of
                                                                                                credit card borrowers are high-risk
 Court of New Jersey to one count of                order restitution but ordered forfeitures                                                   the Bank of Paxton, Paxton, Nebraska,
                                                                                                borrowers with poor credit histories. The
 conspiracy to commit securities fraud.             of $4.7 million for the former president                                                    pleaded guilty to one count of bank
                                                    and director and $92,643 for the            credit card accounts were funded by
 As part of his plea agreement, this                                                            BestBank using money from depositors.           fraud and one count of obstructing the
 defendant agreed to forfeit to the                 former chief financial officer.                                                             examination of a financial institution.
                                                                                                BestBank attracted depositors by
 government more than $2.8 million                   In February 2007, these defendants         offering above-market interest rates. In        The Bank of Paxton lost approxi-
 representing the proceeds of his illegal           and the former BestBank owner and           July 1998, the bank was closed. The             mately $3.9 million as a result of the
 activities. The defendant admitted to              chief executive officer and chairman        Colorado State Banking Commissioner             defendant’s criminal activities. The
 directing at least two others to open              of the board of directors were found                                                        Bank of Paxton was scheduled to be
                                                                                                and the FDIC determined that the
 depository accounts at Provident Bank              guilty of 15 felony counts of fraud and                                                     closed on May 23, 2006, due to the
                                                                                                value of the subprime credit card
 and other banks, that he identified as             conspiracy relating to BestBank’s $248                                                      fraud, but the bank owner recapitalized
                                                                                                loans maintained as an asset on the
 likely to offer its depositors shares in           million failure in 1998. The former                                                         the bank and prevented the closing.
                                                                                                books of BestBank was overstated
 IPOs. He then directed the two others              owner and chief executive officer and       because delinquent loans were fraudu-             It is alleged that from on or about
 to sell the shares on the open market              chairman of the board of directors is       lently made to appear nondelinquent.            January 2004 to April 2006, the
 and wire transfer the proceeds to him.             scheduled to be sentenced in October        BestBank’s liability to its depositors          defendant manipulated 12 loans
   Joint investigation by the FDIC OIG, IRS-        2007.
                                                                                                exceeded the value of its other assets,         totaling approximately $5 million
 Criminal Investigation Division, U.S. Postal
 Inspection Service, and the FBI; prosecuted          In addition, on August 17, 2007, the      making it insolvent and one of the              for his benefit and the benefit of
 by the U.S. Attorney’s Office for the District     owners of Century Financial Services,       largest bank failures in the last 10 years.     others. The loans were made with
 of New Jersey - Securities and Health Care         Inc. and Century Financial Group,           Depositors’ losses exceeded $200                forged signatures and false financial
 Fraud Unit.                                        Inc. were sentenced. The owners,            million. The FDIC’s Bank Insurance              statements. In addition, during the
                                                    who were previously found guilty of         Fund covered all depositors’ losses             last two FDIC and state examinations,
                                                    bank fraud, wire fraud, filing false        except for $27 million of deposits which        the defendant allegedly falsified bank

20 Office of Inspector General – Semiannual Report to the Congress                                                           Office of Inspector General – Semiannual Report to the Congress 21
 documents to conceal his fraudulent               Minnesota, was found guilty of one        period, the defendant and two co-                   of Capital, which were required for
 activity. Our investigation revealed              count of conspiracy, three counts of      conspirators used the money obtained                the approval of the loans, and used
 that just days before the start of bank           forging securities, seven counts of       through this scheme for vacations,                  improper bank procedures and secrecy
 examinations, the defendant posted                embezzlement by a bank officer, and       home renovations and decorating,                    to ensure that the loans were approved.
 positive information on nonperforming             three counts of mail fraud.               automobiles, cosmetic surgery,
 loans to give the appearance that the                                                                                                             The defendant also stipulated to an
                                                                                             gambling, and country club dues. In all,
                                                     The defendant was a primary lending                                                         action under 8(e) of the Federal Deposit
 loans were performing. Immediately                                                          the defendant and her co-conspirators
                                                   officer at the bank’s Edina branch                                                            Insurance Act, which provides for a
 after the examinations, the defendant                                                       embezzled approximately $1 million
                                                   office where she specialized in larger                                                        lifetime ban from banking.
 reversed the postings. In addition, the                                                     from the bank and its customers.
                                                   commercial loans and lending to
 defendant submitted false quarterly                                                          Joint investigation by the FDIC OIG and the
                                                                                                                                                  Joint investigation by the FDIC OIG, the
                                                   borrowers of higher net worth. She                                                            FBI, and the Legal Division of the FDIC New
 reports to the Bank of Paxton’s Board                                                       FBI, based on a referral from DSC Kansas City
                                                   was employed by the bank from                                                                 York Regional Office; prosecuted by the Fraud
 of Directors to conceal his illegal                                                         Regional Office; prosecution is being handled
                                                   July 15, 1996, until her negotiated       by the U.S. Attorney’s Office for the District of   Section of the Criminal Division of the U.S.
 activity.                                                                                                                                       Department of Justice.
                                                   severance on December 10, 2004.           Minnesota.
  He also stole $300,000 from a                    Alliance management terminated her
 wealthy Bank of Paxton bank customer.             employment based on questionable
                                                                                             Former Senior Vice President of Capital             Former Loan Officer Pleads Guilty to One
 The customer was on the Board of                  lending judgment and unauthorized                                                             Count of Bank Fraud
                                                                                             Bank and Trust Pleads Guilty to Bank Fraud
 Directors and the defendant knew that             lending that caused losses in excess of
 he checked his account infrequently.              $1.1 million.                               On July 24, 2007, the former senior                 On June 8, 2007, a former loan
 The defendant was able to steal money                                                       vice president, Capital Bank and Trust              operations officer at The PrivateBank
                                                     According to the earlier indictment,                                                        and Trust Company, an FDIC-regulated
 out of the customer’s account and                                                           Company (Capital), Albany, NY, waived
                                                   the defendant used her position as a                                                          institution, pleaded guilty to one
 move it to his wife’s account and other                                                     indictment and pleaded guilty to a
                                                   loan officer to divert for her own use                                                        count of bank fraud, as charged in an
 accounts where he maintained control.                                                       criminal information charging him with
                                                   funds that customers paid to the bank                                                         information filed in May 2007 in the
  Joint investigation by the FDIC OIG and the                                                misapplication of bank funds.
                                                   as well as fictitious fees she tricked                                                        Northern District of Illinois.
 FBI; prosecution is being handled by the U.S.
                                                   customers into paying. The defendant        According to the information, between
 Attorney’s Office for the District of Nebraska.
                                                   converted checks received from bank       1997 and 2003, the defendant                          The information alleged that
                                                   customers into cashier’s checks and       approved a series of risky loans for a              from approximately July 2000 and
 Former Vice President of Alliance Bank            funneled those checks into another        number of individuals and businesses                continuing to at least November 2006,
 Found Guilty on Multiple Counts of Bank           bank account. At times, she forged        contrary to sound lending practices and             the defendant executed a scheme to
 Fraud
                                                   check signatures and endorsements.        in violation of Capital’s own lending               defraud The PrivateBank and Trust
   In a decision reached on July 18,               In an attempt to conceal her embez-       requirements. A number of these loans               Company. In particular, the defendant
 2007, by a judge in the U.S. District             zlement, she altered bank records         defaulted causing losses to Capital of at           created a fictitious line of credit for
 Court for the District of Minnesota,              and made false statements when            least $824,270. In making these loans,              $775,000 in the name of a customer,
 the former vice president of Private              questioned by bank employees about        the defendant, on several occasions,                backdated it, and used his mother’s
 Banking, Alliance Bank, New Ulm,                  specific transactions. Over a 4-year      forged the signatures of two presidents             address for the fictitious line of credit.

22 Office of Inspector General – Semiannual Report to the Congress                                                            Office of Inspector General – Semiannual Report to the Congress 23
 The defendant then took draws on the              the bank’s internal expense accounts.            to FCB. He earlier pleaded guilty in April       his wife, both of Lebanon, Missouri,
 line of credit and eventually transferred         Transactions were also initiated                 2007 to a criminal information charging          were sentenced in the in the U.S.
 the funds to his personal checking                causing bank checks to be issued or              him with one count of embezzlement.              District Court for the Eastern District
 account. In addition, the defendant               Internet payments to be made to third                                                             of Missouri. The former president was
                                                                                                      The defendant admitted to devising
 attempted to conceal his scheme by                parties, such as credit card companies,                                                           sentenced to 27 months in prison, to
                                                                                                    a scheme to divert $240,533 of bank
 processing the transaction on The                 in payment of monies owed by the                                                                  be followed by 5 years of supervised
                                                                                                    funds by the creation of fictitious loans
 PrivateBank and Trust Company’s                   defendant and his wife. The defendant’s                                                           release, and was ordered to pay
                                                                                                    and making partial withdrawals from
 internal data processing system to hide           activities account for approximately                                                              restitution in the amount of $315,412.
                                                                                                    customers’ certificates of deposit.
 the outstanding balance on the fictitious         $569,115 in losses to the bank.                  When the defendant needed cash,                  His wife was sentenced to 4 months
 line of credit from the bank’s internal                                                            he completed withdrawal slips in the             of home confinement, to be followed
                                                     As part of his plea agreement, the
 and external auditors. The result was                                                              customers’ name and then obtained                by 5 years of supervised release, and
                                                   defendant stipulated to an action under
 a loss to the bank of approximately                                                                the cash (cashier’s check or money               was ordered to pay restitution in the
                                                   8(e) of the Federal Deposit Insurance
 $916,191.                                                                                          order) from behind the teller line.              amount of $81,984. Earlier, both
                                                   Act, which provides for a lifetime ban
    Joint investigation by the FDIC OIG and                                                         The defendant made the negotiable                defendants pleaded guilty to fraud
                                                   from banking and agreed to pay
 the FBI; prosecution was handled by the U.S.                                                       instruments payable mostly to his                charges involving false statements to
                                                   restitution in the amount of $548,889
 Attorney’s Office for the Northern District of
                                                                                                    creditors. However, on occasion,                 obtain nominee loans. The former
 Illinois.                                         immediately upon imposition of his
                                                                                                    the defendant made the negotiable                president pleaded guilty to one count
                                                   sentence.
                                                                                                    instruments payable to himself and               of making a false statement and bank
 Former VP of Operations at Burlington
                                                     Joint investigation by the FDIC OIG and
                                                                                                    deposited the funds into his personal            fraud, and his wife pleaded guilty to
                                                   the FBI, based upon on a referral from DSC;                                                       one count of false statements.
 Bank & Trust Pleads Guilty                                                                         account maintained at a non-FCB
                                                   prosecution is being handled by the U.S.
   On August 1, 2007, the former vice              Attorney’s Office for the Southern District of   branch. Prior to entering his plea,                As previously reported, the
                                                   Iowa.                                            the defendant made a repayment of                defendants were indicted by a federal
 president of operations, Burlington
 Bank & Trust, Burlington, Iowa, pleaded                                                            $10,000 to FCB.                                  grand jury on 26 felony counts of
 guilty in the U.S. District Court for the         Former Vice President of First Citizens            Joint investigation by the FDIC OIG and the    conspiracy to make false statements
 Southern District of Iowa, to a five-count        Sentenced to Prison                              FBI; prosecuted by the U.S. Attorney’s Office    to FDIC-insured institutions and the
 information charging him with two                                                                  for the Eastern District of North Carolina.      U.S. Department of Agriculture Farm
                                                    On June 20, 2007, in the U.S. District
 counts of misapplication and embez-                                                                                                                 Service Agency, false statements,
                                                   Court for the Eastern District of North
 zlement of bank funds and three counts                                                             Other Successful Outcomes                        money laundering, and bank fraud.
                                                   Carolina, the former Vice President,
 of money laundering.                                                                                                                                 Joint investigation by the FDIC OIG, the
                                                   Cash Management Sales Specialist,
                                                                                                    Former President of Canton State Bank            FBI, and U.S. Department of Agriculture OIG,
   According to an earlier information,            First Citizens Bank (FCB), Raleigh, North        and His Wife Sentenced on Multiple               based on a referral from DSC; prosecuted
 the defendant allegedly made 109                  Carolina, was sentenced to 33 months             Charges of Bank Fraud                            by the U.S. Attorney’s Office for the Eastern
 internal transactions causing money               of incarceration, to be followed by                                                               District of Missouri.
 to be transferred to his and/or the               3 years of supervised release and was             On August 30, 2007, the former
 accounts of his fiancé, now wife, from            ordered to pay $230,000 in restitution           president of Canton State Bank and


24 Office of Inspector General – Semiannual Report to the Congress                                                                Office of Inspector General – Semiannual Report to the Congress 25
 Bank Employee Pleads Guilty to Stealing           Jury Finds Owners of Stardancer Casino     to commit mail fraud, wire fraud,             also found to have deposited those
 Over $3.2 Million from BancFirst                  Guilty on 28 Counts of Fraud               and deprivation of honest services.           three checks into Stardancer’s checking
   On July 26, 2007, the former vault                On May 17, 2007, after a 9-day           Evidence presented during the trial           account at the Bank of America,
 teller and teller supervisor at a branch          trial in the District of South Carolina,   established that the defendants               knowing that those funds were derived
 office of BancFirst in Seminole,                  Florence Division, the owners of           conspired to commit mail fraud from           from an ongoing embezzlement
 Oklahoma pleaded guilty in the U.S.               Stardancer Casinos Inc, (Stardancer)       January 1999 through December                 scheme at Oakwood; resulting in his
 District Court for the Eastern District           of Duluth, Georgia, were found guilty      2003. The defendants purchased at             conviction of three counts of money
 of Oklahoma to an information                     by a federal jury on 28 counts of tax      least $148,000 in personal items with         laundering. In total, between the
 charging her with one count of false              fraud, conspiracy to commit mail fraud,    credit cards and paid for those items         period November 1998 and January
 entry in the books of an FDIC-insured             mail fraud, wire fraud, deprivation        with Stardancer Casino funds. Their           2002, he received approximately $41
 bank and one count of criminal                    of honest services, receiving stolen       scheme also involved coding those             million in stolen funds either directly or
 forfeiture. The criminal forfeiture               property, and money laundering.            personal charges to Stardancer’s              for the benefit of Stardancer.
 includes a money judgment of approx-                The former president and chief           general ledger as business expenses.            Upon their conviction, the defendants
 imately $3,263,695; and forfeiture                executive officer of Stardancer and his    In addition, the defendants were each         immediately consented to the forfeiture
 of real property, including 11 motor              spouse operated casino boats in Little     charged with three counts of mail fraud       of $835,000 in personally owned
 vehicles and tractors, electronic enter-          River, South Carolina, and several         for their purchase of insurance for their     stock. It was determined that the stock
 tainment equipment, furniture, and                locations in Florida between February      56-foot Sea Ray yacht. Similar to their       was originally purchased from the
 jewelry.                                          1999 and January 2003. Upon the            credit card scheme, the defendants            proceeds of the defendants’ personal
                                                   conclusion of the trial, the defendants    charged their personal yacht insurance        checking accounts which had been
   The defendant admitted to creating                                                         to Stardancer’s general ledger as a
                                                   were both found guilty of 18 counts                                                      funded by their Stardancer salaries.
 false internal bank documents                                                                business expense and paid for the
                                                   of tax fraud for the period April                                                          The investigation into Stardancer
 showing the movement of cash in                                                              insurance, totaling approximately
                                                   2001 to November 2002. Evidence
 and out of the branch vault, and                                                             $17,500, with Stardancer funds.               was initiated in February 2002, when
                                                   presented during the trial showed
 then separately created false internal                                                                                                     the former President of the Oakwood
                                                   the defendants were responsible for          The former president and chief
 bank documents using the general                                                                                                           Deposit Bank Company, Oakwood,
                                                   withholding employment taxes from          executive officer of Stardancer was
 ledger accounts to cure the account                                                                                                        Ohio, confessed to embezzling over
                                                   300 Stardancer employees’ payroll          also found guilty of three counts of
 imbalances due to the initial false                                                                                                        $40 million from Oakwood Deposit
                                                   checks and failed to pay those taxes       receiving stolen property. Evidence
 entries. The amount of proceeds                                                                                                            Bank Company which led to the
                                                   to the government. The defendants          presented at trial established that
 obtained by the defendant and as a                                                                                                         bank’s insolvency. He admitted that
                                                   also failed to pay excise taxes while      between December 1998 and January
 result of the offenses is approximately                                                                                                    most of the money was embezzled to
                                                   operating the casino boats, resulting in   2002, he received 3 checks totaling
 $3,263,695.                                                                                                                                Stardancer. Investigators eventually
                                                   a loss to the United States of approxi-    approximately $2.3 million from the           determined that approximately $41
   Joint investigation by the FDIC OIG and         mately $2.8 million.
 the FBI; prosecution is being handled by the
                                                                                              Oakwood Deposit Bank Company                  million was embezzled to Stardancer,
 U.S. Attorney’s Office for the Eastern District    The defendants were also found            (Oakwood), Oakwood, Ohio, knowing             and ultimately shut down the company
 of Oklahoma.                                      guilty of one count of conspiracy          the funds had been stolen. He was             in January 2003, with the execution

26 Office of Inspector General – Semiannual Report to the Congress                                                       Office of Inspector General – Semiannual Report to the Congress 27
                                                                                                                                                                             Strategic Goal 2
                                                                                                                                                                             Insurance: Help
                                                                                                                                                                             the FDIC Maintain
                                                                                                                                                                             the Viability of the
                                                                                                                                                                             Insurance Fund




 of search warrants and seizure of
 Stardancer’s gambling vessels and
 shuttle craft. The former president
 pleaded guilty to embezzlement and
                                                                            A Strong Partnership
                                                                                                                                 F Federal deposit insurance remains
                                                                                                                                 a fundamental part of the FDIC’s
                                                                                                                                 commitment to maintain stability and
                                                                                                                                 public confidence in the Nation’s
                                                                                                                                                                               support of deposit insurance reform
                                                                                                                                                                               will continue.
                                                                                                                                                                                 The continuing consolidation of the
                                                                                                                                                                               banking industry means there are a
 money laundering and was sentenced                        The OIG has partnered with various U.S. Attorneys’ Offices            financial system. In February 2006,           few very large institutions that represent
 to 14 years’ imprisonment and was                       throughout the country in bringing to justice individuals who           President Bush signed into law the            an increasingly significant share of the
 ordered to pay $48,718,405 in                        have defrauded the FDIC or financial institutions within the juris-        Federal Deposit Insurance Reform Act          Deposit Insurance Fund’s risk exposure.
 restitution.                                         diction of the FDIC, or criminally impeded the FDIC’s examination          of 2005, prompting sweeping changes           Industry consolidation presents benefits
   The investigation into Stardancer Casinos           and resolution processes. The alliances with the U.S. Attorneys’          in the federal deposit insurance system.
                                                      Offices have yielded positive results during this reporting period.
                                                                                                                                                                               and risks to the Deposit Insurance
 was conducted by the FDIC OIG, the Internal                                                                                     The Congress gave the Corporation             Fund. While the risks to the funds are
 Revenue Service-Criminal Investigation                                                                                          9 months to implement most of the
 Division, and the FBI. The case was
                                                        Our strong partnership has evolved from years of trust and hard                                                        diminished because of the diversifi-
 prosecuted by the District of South Carolina,            work in pursuing offenders through parallel criminal and civil         provisions of the legislation. In October     cation benefits of consolidation (along
 Florence Division, and the U.S. Department              remedies resulting in major successes, with harsh sanctions for         2006, the FDIC Board of Directors             geographic and product lines), the
 of Justice, Criminal Division, Fraud Section,          the offenders. Our collective efforts have served as a deterrent         approved a final rule to implement a          concentration of deposits in fewer
 Washington D.C.                                       to others contemplating criminal activity and helped maintain the         one-time assessment credit to banks           insured depository institutions increases
                                                              public’s confidence in the nation’s financial system.              and thrifts. The credit is used to offset     the risks to the Deposit Insurance Fund
                                                            For the current reporting period, we are especially appre-
                                                                                                                                 future assessments charged by the             in the event a large insured depository
                                                            ciative of the efforts of the Assistant U.S. Attorneys in the        FDIC and recognizes contributions that        institution fails.
                                                        following offices: Eastern District of New York, Western District        certain institutions made to capitalize
                                                                                                                                 the funds during the first half of the          As a result of industry consolidation,
                                                       of Wisconsin, District of New Jersey—Securities and Health Care                                                         the assets in the industry are also
                                                       Fraud Unit, Middle District of Florida, Eastern District of Missouri,     1990s. In November 2006, the Board
                                                                                                                                 also adopted a final rule on the pricing      increasingly concentrated in a small
                                                        Northern District of Texas, Northern District of Georgia, District
                                                                                                                                 structure and approved a more risk-           number of large, complex institutions
                                                         of Colorado, District of Nebraska, Eastern District of Kentucky,
                                                                                                                                 sensitive framework for the 95 percent        for which the FDIC is not, for the most
                                                        Western District of Washington, District of Minnesota, Southern
                                                                                                                                                                               part, the primary regulator. The largest
                                                          District of Texas, Eastern District of North Carolina, Southern        of insured institutions that are well
                                                                                                                                                                               banks operate highly complex branch
                                                       District of Illinois, District of Kansas, Eastern District of Michigan,   capitalized and well managed.
                                                                                                                                                                               networks, have extensive international
                                                       Eastern District of Oklahoma, District of South Carolina, and the
                                                                                                                                   In addition to the extensive                and capital market operations, and
                                                        Western District of Missouri. The OIG also worked closely with
                                                                                                                                 rulemaking required in conjunction            work on the cutting edge of techno-
                                                       Trial Attorneys from the Fraud Section of the Criminal Division of
                                                                                                                                 with deposit insurance reform,                logically sophisticated finance and
                                                                              the Department of Justice.
                                                                                                                                 fundamental changes have been                 business. The increased complexity
                                                                                                                                 made in the FDIC’s business functions,        of the industry and the concentration
                                                                                                                                 including modification to major               of risk to the insurance funds in the
                                                                                                                                 application systems and creation of           largest banking organizations are
                                                                                                                                 new on-line tools. System changes in          expected to grow more pronounced

28 Office of Inspector General – Semiannual Report to the Congress                                                                                          Office of Inspector General – Semiannual Report to the Congress 29
 over time and to present greater                   in headquarters to coordinate the          financial institutions with consoli-            officials indicated that the DE Program
 risk-management challenges to the                  FDIC’s nationwide programs focused         dated banking assets that exceed                has been an effective mechanism
 Corporation. A two-tiered banking                  on supervising and assessing risk in       $10 billion. At the time of our audit,          through which supervisory, insurance,
 system characterized by a limited                  large institutions. A key program in       there were 119 insured institutions             and resolution-related information is
 number of very large, complex institu-             this regard is the Dedicated Examiner      covered by the LIDI Program, 25 of              obtained.
 tions and a much larger number of                  (DE) Program, established in 2002.         which were FDIC supervised. The 119
                                                                                                                                                 Further, the DEs have complied
 small community banks has emerged.                 This program has placed dedicated          institutions had total assets exceeding
                                                                                                                                               with DSC guidance on reporting
 The banking regulators, including the              examiners in the six largest insured       $9 trillion and total deposits of $5.6
                                                                                                                                               information relative to DE Program
 FDIC, need insight into the risks that             depository institutions to work in         trillion, comprised of both insured
                                                                                                                                               institutions and have established
 are inherent in these different types of           cooperation with primary regulators        and uninsured deposits. To assist the
                                                                                                                                               effective working relationships with
 banking organizations.                             and bank personnel to obtain real-         FDIC in assessing the risks associated          the institutions and their respective
   To help the FDIC maintain the                    time access to information about the       with the largest institutions in the LIDI       FBAs–OCC and OTS officials-as well
 viability of the deposit insurance fund,           risk and trends in those institutions.     program that are not FDIC-supervised,           as FDIC officials in the Division of
 the OIG’s 2007 performance goal was                We conducted an audit to determine         the FDIC and the other federal                  Insurance and Research and Division
 as follows:                                        whether the DE Program is contributing     banking agencies (FBAs) established             of Resolutions and Receiverships.
                                                    to the FDIC’s efforts to assess and        the DE Program. The DE Program
   • Evaluate corporate programs                    quantify the risks posed by large insti-   includes six LIDIs supervised by either           Our audit report did not contain
     to identify and manage risks in the            tutions to the Deposit Insurance Fund.     OCC or OTS.                                     recommendations. However, DSC
     banking industry that can cause                                                                                                           provided a response stating that the
     losses to the fund.                              Another of our audits during the           Our audit determined that the DE              FDIC would continue to assess means
                                                    reporting period assessed the FDIC’s       Program has been successful in                  for improving the efficiency and overall
 OIG Work in Support of Goal 2                      role in reviewing shared national          providing the FDIC with supervisory             effectiveness of the LIDI and DE
   As insurer, the FDIC needs a compre-             credits (SNC) and the consideration        information related to the operations           programs.
 hensive understanding of the risks                 of SNC ratings in risk management          at the six largest insured institutions
                                                                                               and risks associated with those institu-        Shared National Credits
 that the largest institutions pose to the          examinations of FDIC-supervised
 Deposit Insurance Fund. The FDIC is                institutions. SNCs represent the largest   tions. The DE Program has provided                An SNC is defined as any loan and/or
 not the primary federal regulator for              and most complex loans and loan            the FDIC with information related to            formal loan commitment extended to
 most of the large institutions that it             commitments held by FDIC-insured           those institutions’ organizational and          a borrower by a supervised institution
 insures. Therefore, the risk assessment            institutions.                              legal structures; international activities;     (subject to supervision by one of the
 process is based on a combination of                                                          business segments; insured deposits;            FBAs), its subsidiaries, and affiliates
                                                    Dedicated Examiner Program
 information obtained from the primary                                                         various types of risks, including               that totals $20 million or more and
 federal regulator, the institution,                  By way of background, the FDIC’s         credit, market, and interest rate; and          (1) is shared by three or more insured
 supervisory activities, market data,               DSC is responsible for the FDIC’s          supervisory actions and strategies–all          institutions under a formal lending
 and publicly available data. The FDIC              Large Insured Depository Institutions      of which are important in assessing             agreement or (2) a portion of which
 established the Large Bank Branch                  (LIDI) Program, which consists of          and mitigating risk to the DIF. FDIC            is sold to two or more insured institu-

30 Office of Inspector General – Semiannual Report to the Congress                                                          Office of Inspector General – Semiannual Report to the Congress 31
 tions, with the purchasing institutions            periodic credit risk assessment of the     firms) meaning that the institution is           In response to a draft of this report,
 assuming a pro rata share of the credit            largest and most complex credits held      not subject to examination by one of           the FDIC commented that it would
 risk. An agent originates an SNC and               by insured financial institutions in the   the FBAs. The interagency letter sent          discuss the need for additional
 administers it for the other lenders.              United States.                             to all known agent financial institutions      guidance and controls over the identi-
                                                                                               each December asks these institu-              fication of SNCs agented by entities
   The SNC Program is an interagency                  The FDIC uses information from the
                                                                                               tions to report SNCs that are agented          that are not supervised institutions with
 program, established in 1977,                      SNC Program in risk management
                                                                                               by an entity that is not a supervised          the other FBAs.
 to provide a periodic credit risk                  examinations and analyses of
                                                                                               institution. However, this process is
 assessment of the largest and most                 emerging risks at large banks,
                                                                                               unlikely to identify those SNCs in which
 complex credits held or agented by                 including underwriting and industry
                                                                                               the agent entities are not supervised
 supervised institutions. The SNC                   performance trends. There were a total
                                                                                               institutions. Given the benefits of the
 Program is administered by the four                of nine sites for the 2007 SNC review
                                                                                               SNC Program in terms of insight into
 FBAs: OCC, FRB, FDIC, and OTS. The                 where the FDIC examiners served as
                                                                                               industry risk and performance and
 FDIC’s DSC is responsible for fulfilling           the Examiner-in-Charge. We reviewed
                                                                                               efficiencies gained in the examination
 the FDIC’s role in the SNC Program.                three such SNC examination sites and
                                                                                               process, we noted that the FDIC,
                                                    determined that the FDIC examiners
   For 2007, the SNC Program included                                                          together with the other FBAs, should
                                                    had appropriately followed guidance
 205 agent institutions, of which 26                                                           consider assessing the need for
                                                    and that credit ratings were adequately
 were FDIC-supervised institutions, that                                                       additional guidance and controls over
                                                    supported by examiner working
 originated about 7,700 credits with                                                           the identification of SNCs agented
                                                    papers. According to DSC examiners,
 a $2.3 trillion commitment balance.                                                           by entities that are not supervised
                                                    SNC results help achieve efficiencies
 About 800 of the more than 5,200                                                              institutions.
                                                    in risk management examinations
 FDIC-supervised banks participate                  by using the SNC rating assigned
 in SNCs. For these 800 institutions,               to credits, thus avoiding multiple
 the SNC Program has the potential                  reviews of the same credits as part of
 beneficial effects of avoiding duplicate           individual risk management examina-
 credit reviews and ensuring consistency            tions of participating institutions.
 in rating determinations.
                                                      Although we did not make recom-
  As a result of our audit work, we                 mendations in this report, we did
 reported that the SNC Program is a                 identify a matter for further consider-
 well-established interagency program               ation by FDIC management involving
 with appropriate interagency coordi-               the process used to identify SNCs
 nation and documentation. The FDIC                 that are agented by entities that are
 has a role similar to that of the other            not supervised institutions (such as
 banking agencies in providing a                    insurance companies and securities

32 Office of Inspector General – Semiannual Report to the Congress                                                         Office of Inspector General – Semiannual Report to the Congress 33
            Strategic Goal 3:
            Consumer Protection:
            Assist the FDIC to
            Protect Consumer
            Rights and Ensure
            Customer Data Security
            and Privacy



C Consumer protection laws are an
 important part of the safety net of
 America. The U.S. Congress has long
 advocated particular protections for
                                                     • The Truth in Lending Act requires
                                                       meaningful disclosure of credit and
                                                       leasing terms.
                                                     • The Fair and Accurate Credit
                                                                                                   costs in fair and simple terms. Another
                                                                                                   factor could be linked to aspects of
                                                                                                   safety and soundness regulation that
                                                                                                   could unnecessarily deter banks from
                                                                                                                                                 and dismantle criminal organizations
                                                                                                                                                 and individual operations engaged in
                                                                                                                                                 fraud schemes that target our financial
                                                                                                                                                 institutions.
 consumers in relationships with banks.                                                            serving the needs of their communities
                                                       Transaction Act further strengthened                                                        To assist the FDIC to protect
 For example:                                                                                      or create conditions that favor high-cost
                                                       the country’s national credit reporting                                                   consumer rights and ensure customer
                                                                                                   products. To address these concerns, in
   • The Community Reinvestment                        system and assists financial institutions                                                 data security and privacy, the OIG’s
                                                                                                   addition to the FDIC’s existing Money
     Act encourages federally insured                  and consumers in the fight against                                                        2007 Performance Goals were as
                                                                                                   Smart program, the Corporation has
     banks to meet the credit needs of                 identity theft.                                                                           follows:
                                                                                                   undertaken other initiatives, including
     their entire community.
                                                     The FDIC carries out its role by (1)          creation of an Advisory Committee              • Evaluate the effectiveness of FDIC
   • The Equal Credit Opportunity Act              providing consumers with access to              on Economic Inclusion. As the                    programs for ensuring customer
     prohibits creditor practices that             information about their rights and              Chairman has pointed out, continuing             data security and privacy at FDIC-
     discriminate based on race, color,            disclosures that are required by federal        dialogue among consumer advocates,               insured institutions.
     religion, national origin, sex,               laws and regulations and (2) examining          regulators, and the banking industry
                                                                                                                                                  • Review FDIC’s examination
     marital status, or age.                       the banks where the FDIC is the                 is key to the challenge of closing the
                                                                                                                                                    coverage of institution compliance
                                                   primary federal regulator to determine          gap between what the unbanked
   • The Home Mortgage Disclosure Act                                                                                                               at FDIC-insured institutions.
                                                   the institutions’ compliance with laws          and underbanked pay for credit and
     was enacted to provide information
                                                   and regulations governing consumer              what those in the mainstream pay.              • Address allegations of fraudulent
     to the public and federal regulators
                                                   protection, fair lending, and community         In congressional testimony and other             insurance coverage and identity
     regarding how depository institu-
                                                   investment.                                     forums, the Chairman has focused on              theft schemes affecting the FDIC.
     tions are fulfilling their obligations
                                                                                                   strengthening protections available to
     towards community housing needs.                FDIC Chairman Bair has stressed the                                                         OIG Work in Support of Goal 3
                                                                                                   borrowers in the subprime mortgage
                                                   importance of economic inclusion and
   • The Fair Housing Act prohibits                                                                market and ensuring that predatory              We completed an audit of DSC’s
                                                   has expressed concern that market
     discrimination based on race, color,                                                          lending practices do not take root in         examination assessment of financial
                                                   mechanisms are not working as well
     religion, national origin, sex,                                                               the banking system.                           institutions’ Compliance Management
                                                   as they should for low-to-moderate
     familial status, and handicap in                                                                                                            Systems (CMS) during the reporting
                                                   income families who must often pay                The OIG’s role under this strategic
     residential real-estate-related                                                                                                             period.
                                                   high amounts for basic financial                goal is targeting audits and evaluations
     transactions.
                                                   services that others obtain at far less         that review the effectiveness of               Investigative work related to
   • The Gramm-Leach-Bliley Act                    cost. Many people lack the financial            various FDIC programs aimed at                protection of personal information and
     eliminated barriers preventing the            skills needed to analyze and compare            protecting consumers, fair lending, and       misrepresentation of deposit insurance
     affiliations of banks with securities         products and their prices. Oftentimes           community investment. Additionally,           also supported this strategic goal
     firms and insurance companies and             the problem is the lack of disclosures          the OIG’s investigative authorities           area during the reporting period, as
     mandates new privacy rules.                   that describe a product and its true            are used to identify, target, disrupt,        described below.

34 Office of Inspector General – Semiannual Report to the Congress                                                          Office of Inspector General – Semiannual Report to the Congress 35
 Compliance Management Systems                     Specifically, the examiners (1) completed     to (1) identify FDIC-supervised institu-        of this nature harm consumers and
                                                   a preliminary risk assessment that            tions engaged in significant nontradi-          can also erode public confidence
   Compliance examinations are the
                                                   addressed each institution’s CMS to           tional mortgage lending and (2) develop         in federal deposit insurance. Our
 primary supervisory tool the FDIC
                                                   assist in risk-scoping the examination        supervisory plans to address risks              Office of Investigations uses the ECU
 uses to determine whether a financial
                                                   and (2) documented support for                associated with such lending.                   to counteract these abuses and also
 institution is meeting its responsibility
                                                   examination conclusions regarding                                                             partners with others to pursue cases of
 to comply with the requirements of                                                              Office of Investigations Works
                                                   the CMS. Additionally, the Reports                                                            this type.
 federal consumer protection laws and                                                            to Curtail Identify Theft and
                                                   of Examination for the seven institu-
 associated regulations.                                                                         Misrepresentation of FDIC                       Electronic Crimes Unit Success
                                                   tions addressed each CMS element
                                                                                                 Insurance or Affiliation                          During the reporting period, the
   The FDIC introduced risk-scoping in             referenced above (board and
 the compliance examination process                management oversight, compliance                Identity theft continues to become            ECU opened five new cases related
 in the mid-1990s. In June 2003,                   program, and compliance audits),              more sophisticated, and the number of           to phishing involving the FDIC. In
 as part of the continued focus on                 and included a summary statement              victims is growing. Identity theft includes     one of the new cases, the ECU was
 risk-scoping, the FDIC revised the                and conclusion on the quality of each         using the Internet for crimes such              able to have the fraudulent Web site
 compliance examination process to                 financial institution’s compliance            as "phishing" emails and "pharming"             deactivated. The other four new cases
 increase attention on an institution’s            management practices for each                 Web sites that attempt to trick people          involved the fraudulent use of the FDIC
 CMS. Although not required by law                 element. Also, where significant              into divulging their private financial          name or logo in an email or fax as part
 or regulation, the FDIC has stated it             violations were identified, the examiner      information. Schemers pretend to be             of a phishing scheme. In these cases,
 expects the institutions it supervises to         tied the cause of the violation to one        legitimate businesses or government             the ECU traced the schemes to locations
 have an effective CMS designed to aid             of the CMS elements in the Reports of         entities with a need for the information        outside of the United States and
 compliance with consumer protection               Examination.                                  that is requested. The OIG’s Electronic         worked with the Department of Justice,
 laws and regulations. Three interde-                                                            Crimes Unit (ECU) responds to such              Computer Crimes and Intellectual
                                                     The report did not make recommenda-
 pendent elements comprise a CMS: a                                                              phishing and pharming scams involving           Properties Section, to notify foreign law
                                                   tions. DSC management commented
 board of directors and management                                                               the FDIC and the OIG.                           enforcement of the fraudulent schemes
                                                   that it was committed to ensuring that
 oversight; a compliance program                                                                                                                 using the FDIC name.
                                                   financial institutions implement effective      Unscrupulous individuals also
 (including policies and procedures,               consumer protection safeguards by                                                              Additionally, the ECU investigated two
                                                                                                 sometimes attempt to misuse the FDIC’s
 training, monitoring, and consumer                maintaining strong CMSs.                                                                      new instances of Web sites that falsely
                                                                                                 name, logo, abbreviation, or other
 complaint response); and periodic                                                                                                               advertised FDIC insurance. In both
                                                   Ongoing Audit Work                            indicators to suggest that deposits or
 compliance audits.                                                                                                                              cases, the ECU, working with FDIC
                                                                                                 other products are fully insured. Such
   Our review of seven sampled insti-               Audit work currently underway is             misrepresentations induce the targets           contractor Brandimensions, was able to
 tutions showed that the examiners                 assessing the implementation of the           of schemes to trust in the strength of          have the sites deactivated.
                                                   FDIC’s supervisory guidance for nontra-
 had adequately assessed each                                                                    FDIC insurance while misleading them             In addition, the ECU provided forensic
                                                   ditional mortgage products.
 financial institution’s CMS as part of                                                          as to the true nature of the insurance          computer assistance on nine existing
 the related compliance examination.                 That audit will assess the FDIC’s efforts   investments being offered. Abuses               and three new FDIC OIG cases. The

36 Office of Inspector General – Semiannual Report to the Congress                                                            Office of Inspector General – Semiannual Report to the Congress 37
                                                                                                                      Strategic Goal 4:
                                                                                                                      Receivership Management:
                                                                                                                      Help Ensure that the FDIC is
                                                                                                                      Ready to Resolve Failed Banks
                                                                                                                      and Effectively Manages
                                                                                                                      Receiverships



cases involved bank fraud at open
and closed financial institutions and
employee misconduct cases involving
the improper use of FDIC computers.
                                            of a felony and was sentenced to
                                            4 years of supervised release.
                                              Beginning in early June 1995 and
                                            continuing through April 2001, SCS
                                                                                            T The United States provides protection
                                                                                            to depositors in its banks, savings
                                                                                            and loan associations, and credit
                                                                                            unions. One of the key players in this
                                                                                                                                               any remaining assets; and distrib-
                                                                                                                                               uting any proceeds to the FDIC,
                                                                                                                                               the bank customers, general
                                                                                                                                               creditors, and those with approved
The forensic computer assistance                                                            process is the FDIC. Among its various             claims.
                                            advertised FDIC-insured certificates of
involved the analysis of electronic                                                         functions, the FDIC seeks the least
                                            deposit (CDs) at interest rates greater                                                           The FDIC’s resolution and receiv-
evidence gathered from computers                                                            costly option to resolve the institution
                                            than those available from financial insti-                                                      ership activities pose tremendous
and other electronic media. The                                                             and acts as the receiver or liquidating
                                            tutions. The investors’ CDs were custo-                                                         challenges. Today record profitability
ECU typically searches the electronic                                                       agent for failed FDIC-insured institu-
                                            dialized and held in the name of UCC.                                                           and capital in the banking industry
evidence for key-words or phrases,                                                          tions. The success of the FDIC’s efforts
                                            The defendants falsely and fraudulently                                                         have led to a substantial decrease
searches for documents and emails                                                           in resolving troubled institutions has a
                                            failed to advise investors nationwide                                                           in the number of financial institution
and other artifacts, and recreates                                                          direct impact on the banking industry
                                            that SCS and UCC would subtract                                                                 failures compared to prior years. There
specialized software applications such                                                      and on the taxpayers.
                                            undisclosed fees ranging from 3 percent                                                         were no bank failures during 2006;
as accounting software.
                                            to 50 percent of the amount invested.             The Division of Resolutions and               however as of September 30, 2007,
Securities Brokers Sentenced in             They made false representations                 Receiverships (DRR) exists to plan and          two banks had failed: (1) Metropolitan
Fraud Schemes                               regarding FDIC insurance coverage of            efficiently handle the resolutions of           Savings, Pittsburgh, Pennsylvania,
                                            the CDs. The investment confirmations           failing FDIC-insured institutions and           with approximately $15.8 million in
  Also during the reporting period,
                                            and statements they sent to investors           to provide prompt, responsive, and              assets and (2) NetBank, Alpharetta,
three brokers were sentenced in the
                                            were false and intentionally misleading,                                                        Georgia, with approximately $2.5
U. S. District Court for the Northern                                                       efficient administration of failing and
                                            and money paid to investors when                                                                billion in assets and $2.3 billion in
District of Texas. These sentencings                                                        failed financial institutions in order to
                                            they liquidated an investment prior to                                                          total deposits. As indicated by the
affirm the severity of misrepresentations                                                   maintain confidence and stability in our
                                            maturity was actually money invested by                                                         trends in mergers and acquisitions,
regarding FDIC insurance or affiliation.                                                    financial system.
                                            another investment or by other persons.                                                         banks are becoming more complex,
Two of the defendants were co-owners
                                            The investors had no ownership in any            • The resolution process involves              and the industry is consolidating into
of San Clemente Securities, Inc. (SCS)
                                            investment that would be purchased in              valuing a failing federally insured          larger organizations. As a result, the
and United Custodial Corporation
                                            UCC’s name. In 1997, SCS, along with               depository institution, marketing            FDIC could potentially have to handle
(UCC), located in San Clemente,
                                            its co-owners, had been banned by the              it, soliciting and accepting bids            a failing institution with a significantly
California. They were each sentenced
                                            National Credit Union Administration               for the sale of the institution, deter-      larger number of insured deposits than
to 60 months of imprisonment and
                                            from doing business with federally                 mining which bid to accept and               it has had to deal with in the past.
2 years of supervised release after
                                            insured credit unions because of SCS’s             working with the acquiring insti-
earlier pleading guilty to count 57 of                                                                                                       The change between how the FDIC
                                            deceptive practices.                               tution through the closing process.
an 88-count indictment, which charged                                                                                                       handled resolutions and receiver-
both defendants with mail fraud. A            Joint investigation by the FDIC OIG and the
                                                                                             • The receivership process involves            ships 20 years ago and how it will
                                            FBI; prosecuted by the U.S. Attorney’s Office
third broker, employed at SCS, earlier                                                         performing the closing function              be handling them 20 years from now
                                            for the Northern District of Texas.
pleaded guilty to one count of misprision                                                      at the failed bank; liquidating              will be largely based on learning

                                                                                                                         Office of Inspector General – Semiannual Report to the Congress 39
 to anticipate and plan, instead of                  • Evaluate the FDIC’s plans and          includes, for example, reports on               risk of unauthorized use of sensitive
 reacting. Through the development                     systems for managing bank              potential financial institution failures        information.
 of new resolution strategies within the               resolutions.                           and sensitive personally identifiable
                                                                                                                                                DRR and Division of Information
 various DRR business lines, FDIC must                                                        information for institution depositors,
                                                     • Respond to potential crimes                                                            Technology security officials took
 set far-reaching plans for the future to                                                     borrowers, and employees.
                                                       affecting the FDIC’s efforts to                                                        prompt action during our audit to
 keep pace with a changing industry.
                                                       recover financial losses.                Much of the sensitive information             better safeguard sensitive resolution
   The OIG’s role under this strategic                                                        handled by the FDIC falls within                and receivership information. We made
 goal is conducting audits and                     OIG Work in Support of Goal 4
                                                                                              the scope of several statutes and               four recommendations to address our
 evaluations that assess the effec-                  DRR has the primary responsibility       regulations intended to protect                 concerns. The DRR Director concurred
 tiveness of the FDIC’s various                    for resolving failed FDIC-insured          such information from unauthorized              with all four recommendations.
 programs designed to ensure that                  institutions promptly, efficiently,        disclosure. These statutes and
 the FDIC is ready to and does                     and responsively to maintain public                                                        OIG Continues to Monitor the
                                                                                              regulations include the Privacy Act of
 respond promptly, efficiently, and                confidence in the nation’s financial                                                       FDIC’s Strategic Readiness Project
                                                                                              1974; the Federal Information Security
 effectively to financial institution              system. In performing their duties,        Management Act of 2002 (FISMA);                   One of the greatest risks to the
 closings. Additionally, the OIG inves-            DRR personnel have access to a             and the FDIC’s Rules and Regulations-           Deposit Insurance Fund and public
 tigative authorities are used to pursue           wide variety of records containing         -Parts 309, Disclosure of Information,          confidence in the nation’s financial
 instances where fraud contributes to              sensitive information concerning           and 310, Privacy Act Regulations.               system would be the failure of a
 a bank’s failure or is committed to               bank employees and customers. Prior                                                        large bank. The FDIC has put plans
 avoid paying the FDIC civil settlements,                                                      One of our audits this reporting
                                                   OIG work focused on DRR efforts to                                                         in place to deal with the possibility
 court-ordered restitution, and other                                                         period evaluated the design and
                                                   protect such information in hardcopy                                                       of a large bank failure, and in that
 payments as the institution receiver.                                                        implementation of selected controls
                                                   form. During the reporting period we                                                       regard it undertook a Strategic
 The OIG continues to work with FDIC                                                          established by DRR for safeguarding
                                                   completed an audit focusing on DRR’s                                                       Readiness Project in January 2007.
 officials to keep current with ongoing                                                       sensitive electronic information
                                                   protection of electronic records.                                                          The purpose of the project was to
 efforts being taken by DRR and the                                                           collected and maintained as a result of
                                                                                                                                              create a simulation that would stress
 Corporation as a whole, to sustain                DRR Protection of Electronic               resolution and receivership activities at
                                                                                                                                              the decision-making associated with
 proficiency in resolution activity and to         Records                                    FDIC-insured financial institutions.
                                                                                                                                              a large bank failure, enhance the
 prepare for the possibility of a large              Key to achieving the FDIC’s mission        DRR had established a number of               FDIC’s ability to determine an effective
 institution failure or multiple failures          of maintaining stability and public        important controls to safeguard the             resolution strategy, advance knowledge
 caused by a single catastrophic event.            confidence in the nation’s financial       sensitive electronic information it             of the process, and identify lessons
   To help ensure the FDIC is ready to             system is safeguarding the sensitive       collects and maintains as a result of           learned. A steering committee of
 resolve failed banks and effectively              information the FDIC collects when         resolution and receivership activities          FDIC executives is leading the project
 manages receiverships, the OIG’s                  conducting resolution and receiv-          at FDIC-insured financial institu-              and Corporate University is directing
 2007 performance goals were as                    ership activities at FDIC-insured          tions. However, we identified several           it. A contractor was hired to design
 follows:                                          financial institutions. Such information   vulnerabilities that increased the              the simulation. During the reporting

40 Office of Inspector General – Semiannual Report to the Congress                                                         Office of Inspector General – Semiannual Report to the Congress 41
                                                                                                                          Strategic Goal 5:
                                                                                                                          FDIC Resources
                                                                                                                          Management: Promote
                                                                                                                          Sound Governance and
                                                                                                                          Effective Stewardship
                                                                                                                          and Security of Human,
                                                                                                                          Financial, IT, and
                                                                                                                          Physical Resources

period, the OIG continued to monitor
the project. We need to be ready
for any large failure and determine
whether fraud is a contributing factor.
                                                Following the initiation of an OIG
                                              investigation and the issuance of
                                              grand jury subpoenas for records,
                                              an FDIC debtor who had claimed
                                                                                       T The FDIC manages and utilizes a
                                                                                       number of critical strategic resources
                                                                                       to carry out its mission success-
                                                                                       fully, particularly its financial, human,
                                                                                                                                     management and financial information
                                                                                                                                     needs; improve corporate financial
                                                                                                                                     business processes; and redirect
                                                                                                                                     resources from transaction processing
We also need to be prepared to review         to be insolvent made a payment of        information technology (IT), and              to analysis, risk management, and
the circumstances that cause a large          $348,314 toward his indebtedness.        physical resources. The Corporation           decision support.
bank failure and make recommenda-             The debtor, who owes the FDIC a          does not receive an annual appro-
                                                                                                                                       Financial resources are but one
tions, if appropriate, to strengthen the      total of $841,605, has been making       priation, except for its OIG, but rather
                                                                                                                                     aspect of the FDIC’s critical assets.
regulatory process.                           monthly payments of several hundred      is funded by the premiums that banks
                                                                                                                                     The Corporation’s human capital is
                                              dollars for 3 years and had claimed      and thrift institutions pay for deposit
FDIC Debtor Makes Restitution                                                                                                        also vital to its success. Because of
                                              that his financial situation prevented   insurance coverage, the sale of assets
Payment of $348,314                                                                                                                  the projected retirements of a large
                                              him from paying anything more.           recovered from failed banks and thrifts,
                                                                                                                                     number of long-serving employees,
  From an investigative standpoint,           The OIG and the Department of            and from earnings on investments in
                                                                                                                                     the FDIC has made efforts to reshape
the OIG continues to conduct                  Justice are continuing to investigate    U.S. Treasury securities.
                                                                                                                                     its workforce with the implementation
concealment of assets investigations to       the financial statements previously
                                                                                         The Board approved a $1.1 billion           of the Corporate Employee Program,
protect the FDIC’s interests as receiver      submitted by the debtor.
                                                                                       corporate operating budget for 2007,          the Succession Management Program,
of a failed institution. Typically, in such
                                                                                       approximately 4.6 percent higher              and the Leadership Development
cases, the OIG pursues instances
                                                                                       than for 2006. The approved budget            Program. Throughout the reshaping
where an individual commits a fraud to
                                                                                       provides funding for additional               of its workforce, the FDIC maintains
avoid paying the FDIC civil settlements,
                                                                                       compliance examiners, increased               its commitment to a working
court-ordered restitution, and other
                                                                                       employee training, enhanced IT                environment of high integrity and to
payments as the institution receiver.
                                                                                       security and privacy programs, and            the achievement of its mission.
During the reporting period, one such
                                                                                       completion of systems changes
debtor made a substantial payment as                                                                                                   Technological advances have
                                                                                       required to support the implemen-
a result of the OIG’s preliminary inves-                                                                                             produced tools that all workers
                                                                                       tation of deposit insurance reform. The
tigative work.                                                                                                                       today would be lost without. IT
                                                                                       Corporation’s 2007 spending on multi-
                                                                                                                                     drives and supports the manner in
                                                                                       year investment projects separately
                                                                                                                                     which the public and private sector
                                                                                       approved by the Board is expected to
                                                                                                                                     conduct their work. At the FDIC, the
                                                                                       be approximately $19 million to
                                                                                                                                     Corporation seeks to leverage IT to
                                                                                       $23 million.
                                                                                                                                     support its business goals in insurance,
                                                                                        The Corporation is continuing to             supervision and consumer protection,
                                                                                       operate in the context of its New             and receivership management, and to
                                                                                       Financial Environment, intended to            improve the operational efficiency of
                                                                                       meet current and future financial             its business processes. The financial

                                                                                                                  Office of Inspector General – Semiannual Report to the Congress 43
 services industry employs technology              functions operational during any           strategic resources, the OIG’s 2007            program activities and initiatives.
 for similar purposes.                             emergencies, including threats to          performance goals were as follows:             Additionally, among other assignments,
                                                   public health such as a pandemic                                                          we performed an evaluation of the
   Along with the positive benefits that                                                       • Evaluate corporate efforts to fund
 IT offers comes a certain degree of               influenza.                                                                                FDIC’s use of performance measures
                                                                                                 operations efficiently, effectively,
 risk. In that regard, information security          The Federal Deposit Insurance Act           and economically.                           and another evaluation of the
 has been a long-standing and widely               empowers the FDIC to enter into                                                           Corporation’s IT application services
                                                                                               • Assess corporate human capital              contracting process, as discussed
 acknowledged concern among federal                contracts to procure goods and
                                                                                                 strategic initiatives.                      below.
 agencies. The E-Government Act of                 services. Over the past several years,
 2002 recognized the importance of                 the Corporation has increased its           • Promote integrity in FDIC internal          Federal Information Security
 information security. Title III of the            reliance on outsourcing for services          operations.                                 Management Act
 E-Government Act, entitled FISMA,                 such as IT infrastructure support,                                                        Evaluation – 2007
                                                                                               • Promote alignment of IT with the
 requires each agency to develop,                  IT application system development,            FDIC’s business goals and                     We contracted with KPMG, LLP
 document, and implement an agency-                and facilities maintenance. Also, a           objectives.                                 (KPMG) to conduct an independent
 wide information security program                 number of new contracting vehicles
 to provide adequate security for the                                                          • Promote IT security measures that           evaluation of the FDIC’s information
                                                   have been implemented. For example,
 information and information systems                                                             ensure the confidentiality,                 security program and practices
                                                   the Corporation combined approxi-
 that support the operations and assets                                                          integrity, and availability of              pursuant to FISMA. FISMA requires
                                                   mately 40 IT-related contracts into one
 of the agency. Section 522 of the                                                               corporate information.                      federal agencies, including the FDIC,
                                                   contract with multiple vendors for a
 Consolidated Appropriations Act of                                                                                                          to have an annual independent
                                                   total program value of $555 million         • Promote personnel and physical
 2005 requires agencies to establish                                                                                                         evaluation performed of their
                                                   over 10 years.                                security.
 and implement comprehensive privacy                                                                                                         information security program and
 and data protection procedures and                  As an integral part of its stewardship    • Evaluate corporate contracting              practices and to report the results
 have an independent third-party review            of the insurance funds, the FDIC has          efforts.                                    of the evaluation to the Office of
 performed of their privacy programs               established a risk management and                                                         Management and Budget.
                                                   internal control program. The Office of     • Monitor corporate risk management
 and practices.                                                                                                                                Key to achieving the FDIC’s mission
                                                   Enterprise Risk Management (OERM)             and internal control efforts.
   Business continuity and disaster                                                                                                          of maintaining stability and public
                                                   is the corporate oversight manager for     OIG Work in Support of Goal 5
 recovery are foremost concerns to all                                                                                                       confidence in the nation’s financial
                                                   internal controls and risk management.
 federal agencies. The FDIC must be                                                             The OIG committed a number of                system is safeguarding the sensitive
                                                   OERM works with FDIC divisions
 sure that its emergency response plans                                                       audit and evaluation resources to work         information it collects and manages
                                                   and offices, helping them to identify,
 provide for the safety and physical                                                          in this strategic goal area during the         in its role as federal deposit insurer
                                                   evaluate, monitor, and manage their
 security of its human resources and                                                          reporting period. One of our most              of banks and savings associations.
                                                   risks.
 ensure that its business continuity                                                          significant undertakings in this area          Ensuring the integrity, availability, and
 planning and disaster recovery                     To promote sound governance               was our work under FISMA, including            confidentiality of this information in an
 capabilities keep critical business               and effective stewardship of FDIC          an assessment of the FDIC’s privacy            environment of increasingly sophisti-

44 Office of Inspector General – Semiannual Report to the Congress                                                        Office of Inspector General – Semiannual Report to the Congress 45
 cated security threats requires a strong,         the priority areas of Access Control;         issued Memorandum M-07-19,                       We reported that the FDIC continues
 enterprise-wide information security              Identification and Authentication;            FY 2007 Reporting Instructions for             to take action to safeguard its PII and
 program.                                          Certification, Accreditation, and             the Federal Information Security               related systems and address privacy-
   KPMG reported that the FDIC has                 Security Assessments; Risk Assessment;        Management Act and Agency Privacy              related provisions of recent OMB
 made significant progress in recent               Personnel Security; and Audit and             Management. The memorandum                     memoranda. Of particular note, the
 years in addressing the information               Accountability. In many cases, the            directs agency Inspectors General to           FDIC has appointed a senior agency
 security provisions of FISMA and                  FDIC was already working to improve           provide relevant status information on         official for privacy, conducted privacy
 the National Institute of Standards               security controls in these areas during       agency privacy programs. In addition,          reviews prescribed by OMB, and
 and Technology. This progress is                  KPMG’s evaluation. We will follow up          the memorandum directs agency IGs to           provided employees and contractors
 noteworthy given the considerable                 on the security control deficiencies          assess (1) the quality of their agencies’      with privacy-awareness training.
 increase in information-security-                 identified in this report as part of future   process for conducting privacy impact          Importantly, the FDIC has established
 related requirements levied on federal            FISMA evaluations.                            assessments (PIA) of systems containing        a process for conducting PIAs of
 agencies. KPMG found that the FDIC                                                              PII and (2) the progress the agency is         its information systems containing
                                                   The FDIC’s Privacy Program and
 established policies and procedures in                                                          making in implementing PII safeguards          PII that is consistent with relevant
                                                   Initiatives
 substantially all of the security control                                                       recommended in OMB Memorandum                  privacy-related policy, guidance,
 areas evaluated. In addition, KPMG                  In fulfilling its legislative mandate of    M-06-15, Safeguarding Personally               and standards. In addition, the FDIC
 noted particular strength in the areas            insuring deposits, supervising financial      Identifiable Information, dated May 2,         is making satisfactory progress in
 of Information Security Governance,               institutions, and managing receiv-            2006. OMB defines a PIA as a process           implementing the provisions of OMB
 Incident Response, and Awareness and              erships and in its role as a federal          for (1) examining the risks of using IT to     Memorandum M-06-15. The FDIC is
 Training and that additional improve-             employer and acquirer of services, the        collect, maintain, and disseminate PII         also working to complete a number of
 ments were underway at the close of               FDIC creates and acquires a significant       from or about members of the public            ongoing privacy program initiatives to
 the evaluation.                                   amount of personally identifiable             and (2) identifying and evaluating             safeguard its PII and related systems.
                                                   information (PII) (e.g., name, Social         protections and alternative processes
   These accomplishments are notable.                                                                                                             This report contains no recommen-
                                                   Security number, or biometric records)        to mitigate the impact to privacy of
 However, KPMG identified a number                                                                                                              dations. We plan to follow up on the
                                                   related to depositors and borrowers           collecting such information.
 of information security control                                                                                                                status of the FDIC’s ongoing privacy
                                                   at FDIC-insured financial institutions
 deficiencies warranting management                                                                Consistent with the provisions of OMB        initiatives as part of future reviews.
                                                   and FDIC employees and contractors.
 attention. Addressing these security                                                            Memorandum M-07-19, we conducted
                                                   Much of the PII managed by the FDIC                                                          IT Events Analysis
 control deficiencies will contribute to                                                         an audit to assess the status of the
                                                   and its contractors falls within the scope
 the FDIC’s ongoing efforts to achieve                                                           FDIC’s privacy program activities and            The Corporation’s risk management
                                                   of several statutes and regulations
 reasonable assurance of adequate                                                                initiatives. Our work focused on the           program emphasizes guidance
                                                   intended to protect such information
 security over corporate information                                                             status of the FDIC’s efforts to address        provided by the Treadway
                                                   from unauthorized disclosure.
 resources. KPMG’s report identifies                                                             selected key provisions of privacy-            Commission’s Committee of
 steps that the Corporation can take                On July 25, 2007, the Office of              related memoranda recently issued by           Sponsoring Organizations (COSO)
 to strengthen security controls in                Management and Budget (OMB)                   OMB.                                           for implementing individual division/

46 Office of Inspector General – Semiannual Report to the Congress                                                           Office of Inspector General – Semiannual Report to the Congress 47
  office risk management programs.                  IT audit resources are used consistent        To that end, we reviewed a sample             procurement experts from CACI briefed
  The FDIC’s Division of Information                with, and promote the achievement             selection of task orders to determine         Division of Administration and DIT
  Technology (DIT) is in the early stage            of, the FDIC’s business goals and             the current issuance process as well as       management concerning best practices
  of adopting the Control Objectives for            objectives. We received feedback              to identify process controls. Further, we     used by other federal agencies for
  Information and Related Technology                on a draft of our project results from        contracted with procurement process           similar procurement programs. FDIC
  (COBIT©) framework, created by the                the FDIC’s Chief Information Officer          experts from CACI Dynamic Systems,            management indicated it had initiated,
  IT Governance Institute, as part of the           and DIT staff and incorporated those          Inc. (CACI) to both benchmark the             or planned to take, actions to address
  division’s risk management program.               comments as appropriate.                      FDIC task order issuance timeline             our suggestions.
  The COBIT© framework links DIT’s                                                                against other federal agencies with
                                                    IT Application Services                       similar procurement programs and to           Use of Performance Measures
  IT control program objectives to the
                                                    Contracting                                   identify government and private sector
  risk management activities defined by                                                                                                           Congress and OMB have worked
  COSO.                                               The FDIC fulfills its IT service require-   best practices that may enhance the           to implement a statutory and
                                                    ments through the use of contracts            ITAS process.                                 management reform framework to
    COBIT© organizes IT activities into
                                                    with various vendors. To enhance                We reported that the ITAS contracting       improve the performance and account-
  business-oriented processes with
                                                    the efficiency and effectiveness of           approach contains appropriate controls        ability of the federal government.
  control objectives to help organizations
                                                    procurement of IT services, the FDIC          over task order awards. In addition,          Congress enacted the Government
  ensure that IT investments align with
                                                    Board of Directors approved $554.8            the ITAS process generally provides           Performance and Results Act of 1993
  business goals and objectives and that
                                                    million to initiate a new Information         for fair competition among the pool           (GPRA) as a key element of this
  IT-related risks and opportunities are
                                                    Technology Application Services (ITAS)        of four ITAS vendors. Further, the            framework. GPRA seeks to improve
  appropriately managed.
                                                    contracting process. The resulting            standard labor category hourly price          the management of federal programs,
    One of our projects during the                  ITAS approach commenced in 2005               rates required to be used by all four         as well as their effectiveness and
  reporting period was to develop an                and included the consolidation of             ITAS vendors and the price realism            efficiency, by establishing a system
  events-based approach for planning                existing IT contracts; the development        determinations enhance control over           under which agencies set goals for
  and prioritizing audit coverage of the            of performance-based contracts; the           the price paid for each task order.           program performance and measure
  FDIC’s IT program and operations.                 establishment of long-term partner-           However, we found that the efficiency         their results.
  An event affects achievement of                   ships with a small pool of pre-qualified      of the ITAS task order process could            The FDIC meets GPRA require-
  objectives and can have a negative                IT service vendors; and the issuance          be improved, as the time frames were          ments through the issuance of a
  impact, a positive impact, or both.               of IT service task orders to that vendor      generally longer than those for Federal       strategic plan, an annual performance
  Events with negative impact represent             pool.                                         Acquisition Regulations-based agencies        plan (APP), and a performance and
  risks. Events with positive impact may                                                          using similar contracting vehicles.
                                                      We conducted an evaluation to                                                             accountability report (PAR). The FDIC
  offset negative impacts or represent
                                                    determine whether the ITAS process              We provided suggested actions to            also has implemented additional
  opportunities.
                                                    strikes the proper balance between            FDIC management to improve the ITAS           performance measurement processes
    Our events-based analysis is intended           timely issuance of task orders and the        contracting process but did not make          in the form of Corporate Performance
  to provide increased assurance that               maintenance of proper risk controls.          formal recommendations. Additionally,         Objectives and balanced scorecards,

48 Office of Inspector General – Semiannual Report to the Congress                                                           Office of Inspector General – Semiannual Report to the Congress 49
                                                                                                                                                              Strategic Goal 6:
                                                                                                                                                              OIG Internal
                                                                                                                                                              Processes: Build
                                                                                                                                                              and Sustain a High-
                                                                                                                                                              Quality OIG Work
                                                                                                                                                              Environment



as well as other performance metrics
related to individual contracts and
system development efforts.
  We conducted an evaluation during
                                            We made three recommenda-
                                          tions to strengthen the performance
                                          measurement processes. The FDIC
                                          did not concur with the recommen-
                                                                                     Ongoing Audit and
                                                                                     Evaluation Work
                                                                                       Ongoing work in this
                                                                                     strategic goal area
                                                                                                                 W While the OIG is focused on the FDIC’s programs and operations, we have an
                                                                                                                 inherent obligation to hold ourselves to the highest standards of performance and
                                                                                                                 conduct. Like any organization, we have processes and procedures for conducting
                                                                                                                 our work; communicating with our clients, staff, and stakeholders; managing
                                          dations, but has taken or proposed                                     our financial resources; aligning our human capital to our mission; strategically
the reporting period to assess the                                                   includes an audit of the
                                          actions that meet the intent of two                                    planning and measuring the outcomes of our work; maximizing the cost-effective
performance measurement processes                                                    Corporation’s laptop
                                          of the recommendations. The final                                      use of technology; and ensuring our work products are timely, value-added,
that the FDIC uses to monitor corporate                                              computer replacement
                                          recommendation addressed enhance-                                      accurate, and complete and meet applicable professional standards.
performance. We determined that the                                                  initiative. We are
                                          ments we determined were needed in
FDIC has developed and implemented                                                   determining whether          To build and sustain a high-quality OIG work environment, the OIG’s 2007
                                          the FDIC’s GPRA program evaluation
multiple performance measurement                                                     there are appropriate       performance goals were as follows:
                                          function. After considering manage-
processes and approaches that serve                                                  controls in place. We                                                       • Ensure quality and efficiency of
                                          ment’s response, we continue to believe                                 • Encourage individual growth through
various stakeholder needs and that                                                   are also completing                                                           OIG audits, evaluations, investiga-
                                          that the FDIC would benefit from                                          personal development;
FDIC managers use to varying levels                                                  evaluations related                                                           tions, and other operations;
                                          implementing our recommendation.                                        • Strengthen human capital
to manage and monitor program                                                        to the FDIC’s transit
                                          Nevertheless, because GPRA does not                                       management and leadership                    • Enhance strategic and annual
performance. Collectively, we found                                                  subsidy program, the
                                          specifically require agencies to conduct                                  development;                                   performance planning and
that the FDIC uses performance                                                       corporate telework
                                          program evaluations, we accepted                                                                                         performance measurement; and
measures to make management                                                          program, and contract        • Foster good client, stakeholder,
                                          management’s decision not to take
decisions to improve programs and                                                    rationalization. Finally,      and staff relationships;                     • Invest in cost-effective and secure IT.
                                          action on this recommendation.
results. We also observed that the FDIC                                              as of the end of the
employs practices to enhance the use      OIG Policy Reviews                         reporting period, we
of performance information.                                                          were in the process of      Encourage Individual Growth
                                            During the reporting period, we                                      Through Personal Development                      W Nominated and supported five
                                                                                     finalizing our report
  The FDIC also communicates              reviewed 17 draft corporate policies                                                                                   members of the OIG to attend
                                                                                     on the FDIC’s risk            W Conducted a mid-year assessment
performance measures externally           and raised 7 policy issues for consid-                                                                                 long-term graduate banking school
                                                                                     management program          of the OIG’s pilot training and
by publishing a strategic plan, APP,      eration in the draft documents related                                                                                 programs sponsored by Stonier, the
                                                                                     and also preparing a        development plans for 2007 for
and PAR. These documents generally        to: Publishing FDIC Information via                                                                                    Southeastern School of Banking
                                                                                     report on the FDIC’s        auditors, evaluators, and investi-
contain information required by GPRA      the Internet and FDICnet, Policy                                                                                       at Vanderbilt University, and the
                                                                                     Claims Administration       gators. The plans reflect a minimum
and implementing guidance issued by       and Procedures for Memorandums                                                                                         University of Wisconsin to enhance
                                                                                     System.                     requirement of 44 hours of training
OMB. Notwithstanding, we identified       of Understanding and Interagency                                                                                       OIG staff expertise and knowledge of
opportunities to enhance the APP and      Agreements, the FDIC’s Enterprise                                      to be taken by auditors and program             the banking industry.
PAR to increase transparency, improve     Architecture Program, and the FDIC                                     analysts in the Office of Audits (OA)
corporate accountability, and provide     Records Management Program Manual.                                     and the Office of Evaluations (OE) and           W Carried out the OIG’s mentoring
information to aid in congressional                                                                              a minimum requirement of 64 hours of            program and made plans for
                                            Our comments are incorporated in                                     training for criminal investigators in the      continuing and enhancing the
decision-making, all key purposes of
                                          final policy, as determined by FDIC                                    Office of Investigations (OI).                  program in fiscal year 2008.
the GPRA legislation.
                                          management.

                                                                                                                                             Office of Inspector General – Semiannual Report to the Congress 51
 Strengthen Human Capital                          to incorporate revised delegations           Curry, and other senior FDIC officials        and participating in PCIE Audit and
 Management and Leadership                         of authority, business functions, and        through the Inspector General’s               Inspection & Evaluation Committee
 Development                                       requirements for off-site storage of vital   regularly scheduled meetings with them        meetings, attending the annual PCIE/
                                                   OIG records.                                 and through other forums.                     Executive Council on Integrity and
   W The 2007 pilot training and
 development plans for OIG staff                     W Updated and provided OIG                   W Participated in DSC regional              Efficiency conference, hosting a joint
 include 8 hours of leadership training            workforce data to OIG senior                 meetings to provide general                   PCIE/Executive Council on Integrity and
 for each person. We disseminated                  executives for their use in formulating      information regarding the OIG and OI          Efficiency meeting, hosting a 2-week
 information and guidance on existing              strategic staffing plans for fiscal year     case studies on bank frauds that are of       session of Introductory Auditor Training
 leadership development programs                   2008 and beyond.                             importance to DSC and the banking             at the FDIC’s Virginia Square training
 to all OIG staff. We began to plan                                                             industry.                                     site, providing support to investigative
                                                   Foster Good Client, Stakeholder,                                                           meetings and training, and volunteering
 establishing an OIG Leadership
                                                   and Staff Relationships                       W Held quarterly meetings with FDIC          to produce the fiscal year 2007 Progress
 Development Program, using the CU
                                                     WMaintained Congressional                 Directors and other senior officials to       Report to the President.
 Leadership Development Program as
                                                   working relationships by providing our       keep them apprised of ongoing audit
 a framework for incorporating unique                                                                                                           W Met with representatives of the
                                                   Semiannual Report to the Congress for        and evaluation reviews and results.
 OIG requirements.                                                                                                                            OIGs of the financial regulatory
                                                   the 6 month period ending March 31,            W Kept DSC, DRR, the Legal Division,        agencies (Board of Governors of the
  W Implemented use of an end-of-
                                                   2007; providing information related          and other FDIC program offices                Federal Reserve System, Department
 assignment feedback form for OA
                                                   to HR 2547, the FDIC Enforcement             informed of the status and results of         of the Treasury, National Credit
 and OE to help foster continuous
                                                   Enhancement Act; notifying interested        our investigative work impacting their
 performance dialogue among all                                                                                                               Union Administration, Securities and
                                                   congressional parties regarding the          respective offices. This is accomplished
 OIG staff. Made plans to assess the                                                                                                          Exchange Commission, Farm Credit
                                                   OIG’s completed audit and evaluation         by notifying FDIC program offices
 success of the process and address any                                                                                                       Administration, Commodity Futures
                                                   work; attending FDIC-related hearings        of recent actions in OIG cases and
 necessary modifications.                                                                                                                     Trading Commission, Federal Housing
                                                   on issues of concern to various              providing OI’s quarterly reports to           Finance Board) to discuss audit and
   W Took a number of steps to update              oversight committees; informing              DSC, DRR, the Legal Division, and the         investigative matters of mutual interest.
 the OIG’s business continuity and                 the cognizant Subcommittees of the           Chairman’s Office outlining activity and
 emergency preparedness plans,                     Senate and House Committees on               results in our cases involving closed           W Continued to hold quarterly
 including updating emergency contact              Appropriations of our fiscal year 2007       and open banks, asset and debt cases.         meetings of the OIG’s Employee
 information; equipping shelter-in-                appropriation baseline; and planning                                                       Advisory Group. The new Employee
                                                                                                  W Participated at Audit Committee
 place rooms in OIG office space                   for Inspector General briefings and                                                        Advisory Group is comprised of three
                                                                                                meetings and presented results of
 in coordination with the Division of              congressional staff participation at the                                                   employees from OI, two employees
                                                                                                significant assignments for consider-
 Administration and DIT; developing an             OIG’s Emerging Issues Symposium in                                                         from OA, and one employee each from
                                                                                                ation by Committee members.
 OIG Emergency Response Plan Quick                 November 2007.                                                                             OE and the Office of Management,
 Reference Guide; and revamping                                                                  W Supported the President’s Council          all of whom meet with the Inspector
                                                    W Communicated with the FDIC
 the OIG Business Continuity Plan                                                               on Integrity and Efficiency (PCIE) by         General to discuss issues of OIG-wide
                                                   Chairman, Vice Chairman, Director
                                                                                                attending monthly PCIE meetings               interest or concern.

52 Office of Inspector General – Semiannual Report to the Congress                                                         Office of Inspector General – Semiannual Report to the Congress 53
    W Continued to post and/or update                W Completed internal reviews of OI’s     activities within the Corporation and           W Attended a May 2007 FDIC-
  information on the FDIC OIG internet              Western Regional Offices (Dallas and      the financial services industry.              sponsored Gartner Group presentation
  (www.fdicig.gov) and intranet sites               Chicago) and reported no instances of                                                   on emerging technologies for business
                                                                                               W Held an OIG conference in April
  to ensure transparency and acces-                 noncompliance with OI policies and                                                      intelligence and data warehousing
                                                                                              2007 to emphasize and explain the
  sibility to OIG products, including               procedures.                                                                             applications.
                                                                                              OIG’s strategic business planning and
  Semiannual Reports to the Congress,
                                                      W Worked with members of the            goals and the measures to assess OIG           W Attended several meetings of the
  audit and evaluation reports, and
                                                    FDIC’s Acquisition Services Branch to     performance in carrying out the plan.         FDIC’s Enterprise Architecture Board.
  investigation-related press releases.
                                                    award a contract to a qualified firm to
                                                                                               W Monitored OIG progress in                    W Took steps to identify and
  Ensure Quality and Efficiency                     provide audit and evaluation services
                                                                                              meeting fiscal year 2007 strategic            explore options and requirements to
  of OIG Audits, Evaluations,                       to the OIG to enhance the quality
                                                                                              and performance goals through use             streamline, enhance, and improve the
  Investigations, and Other                         of our work and the breadth of our
                                                                                              of the OIG Dashboard and regularly            collection and reporting of information
  Operations                                        expertise as we conduct audits and
                                                                                              scheduled status meetings with OIG            needed to manage OIG audits and
                                                    evaluations.
    W Continued revising OA’s Policy                                                          executives.                                   evaluations. Held multiple meetings
  and Procedures Manual to address                    W Continued to maintain a project                                                     between the OIG’s TeamMate Update
                                                                                              Invest in Cost-Effective and
  changes in the performance audit                  management tracking and reporting                                                       project team and DIT to plan for,
                                                                                              Secure IT
  standards and process changes                     process for internal OIG projects. The                                                  test, and install the latest update of
  deemed advisable as a result of an                milestone documents for projects were      W Integrated planning for OIG IT             TeamMate by December 2007.
  internal assignment management                    updated regularly and used to track       needs in the annual business planning
                                                                                              process by developing specific IT-              W Continued efforts to improve the
  review and the external peer review               the status and progress of the OIG’s
                                                                                              related initiatives as key efforts to be      OIG’s Training System and the process
  results.                                          internal improvement projects.
                                                                                              monitored on a continuous basis.              of requesting and approving training
   W Trained OA and OE staff on the                 Enhance Strategic and Annual                                                            for OIG professional, supervisory, and
  Government Accountability Office                  Planning and Performance                    W Coordinated extensively with DIT to       administrative staff using the system.
  2007 revision of Government Auditing              Measurement                               migrate the OIG’s systems and files to
  Standards as part of an OIG-                                                                the OIG’s new servers.
                                                      W Continued efforts to conduct
  wide conference in April 2007. The                                                            W Collaborated with DIT to
                                                    the OIG’s fiscal year 2008 business
  new standards will be effective for                                                         replace OIG laptops and success-
                                                    planning process, including review of
  engagements beginning on or after                                                           fully completed all installations in
                                                    the fiscal year 2007 planning process
  January 1, 2008.                                                                            headquarters and field office sites.
                                                    to determine what worked well and
    W Received an unmodified opinion                what could be improved, internal OIG        W Continued to partner with DIT to
  from the Department of State OIG as               meetings to validate strategic and        ensure the security of OIG information
  a result of its peer review of our audit          performance goals, outreach meetings      in the FDIC computer network
  operations.                                       to FDIC Divisions and Offices, and        infrastructure.
                                                    research and analysis of significant

54 Office of Inspector General – Semiannual Report to the Congress                                                       Office of Inspector General – Semiannual Report to the Congress 55
                       Cumulative Results (2-year period)

                         Nonmonetary Recommendations                                   Fiscal Year 2007 Performance Report
                         October 2005 - March 2006   34
                                                                                       This performance report presents an overview of our performance compared to our fiscal year 2007
                         April 2006 - September 2006 48                                annual performance goals in our Business Plan. It provides a statistical summary of our qualitative
                                                                                       goals as well as a narrative summary of performance results by Strategic Goal. It also shows our
                         October 2006 - March 2007   35
                                                                                       results in meeting a set of quantitative goals that we established for the year. Our complete 2007
                         April 2007 - September 2007  7                                Business Plan is available at www.fdicig.gov
                                                                                       We formulated six strategic goals, as shown in the table below. Each of our strategic goals, which are
                                                                                       long-term efforts, has annual performance goals and key efforts that represent our initiatives in fiscal
                                                                                       year 2007 toward accomplishing the strategic goal. The table reflects the number of performance
                       Products Issued and Investigations Closed                       goals that were Met, Substantially Met, or Not Met. This determination was made through ongoing
                                                                                  40   discussions at the OIG Executive level and a qualitative assessment as to the impact and value of the
L E G E N D                                                                            audit, evaluation, investigation, and other work of the OIG supporting these goals throughout the year.
                                                              37                  35
•   Oct 05 - Mar 06                                                               30   As shown in the table, we met or substantially met all of our performance goals in fiscal year 2007. A
                                                                        30
•   Apr 06 - Sept 06                                                                   discussion of our success in each of the goals follows the table.
                                                                                  25
•   Oct 06 - Mar 07                                                21
                                                                             23   20
•   Apr 07 - Sept 07                                                              15
                                 15
                           11           11 12                                     10
                                                                                  5     Fiscal Year 2007 Annual Performance Goal Accomplishment (Number of Goals)
                                                                                  0                                                                     Performance Goals
                                                                                                       Strategic Goals                                 Substantially
                              Audits &                        Investigations                                                                  Met                       Not Met       Total
                                                                                                                                                           Met
                             Evaluations
                                                                                        Supervision: Assist the FDIC to Ensure the
                                                                                                                                                1             1                         2
                                                                                        Nation’s Banks Operate Safely and Soundly
                                                                                        Insurance: Help the FDIC Maintain the
                       Questioned Costs/Funds Put to Better Use                                                                                 1                                       1
                                                                                        Viability of the Insurance Fund
                       (in millions)
                                                                                  5     Consumer Protection: Assist the FDIC
L E G E N D                4.9                                                          to Protect Consumer Rights and Ensure                   2             1                         3
                                                                                  4     Customer Data Security and Privacy
•   Oct 05 - Mar 06
•   Apr 06 - Sept 06                                                                    Receivership Management: Help Ensure
•   Oct 06 - Mar 07                                                               3     that the FDIC is Ready to Resolve Failed                2                                       2
•   Apr 07 - Sept 07                                                                    Banks and Effectively Manages Receiverships
                                                                                  2     FDIC Resources Management: Promote
                                                                                        Sound Governance and Effective Stewardship
                                                                                  1                                                             6             2                         8
                                                                                        and Security of Human, Financial, IT, and
                                         0            0   0                             Physical Resources
                                                                                  0
                                                                                        OIG Internal Processes: Build and Sustain
                                                                                                                                                6                                       6
                                                                                        a High-Quality OIG Work Environment
                                                                                        Total                                                  18             4                        22
                       Fines, Restitution, and Monetary Recoveries
                       Resulting from OIG Investigations                                Percentage                                             82            18                        100
                       (in millions)

                                                                                  80   Goal 1: Assist the FDIC to Ensure                      other financial regulatory OIGs, and
L E G E N D                             75.6
                                                                                       the Nation’s Banks Operate Safely                      banking industry officials. During fiscal
                                                                                  60   and Soundly                                            year 2007, in audit reports issued, we
•   Oct 05 - Mar 06
                                                                                                                                              made recommendations to enhance
•   Apr 06 - Sept 06                                                                     Our work in helping to ensure
•   Oct 06 - Mar 07                            40.7                               40                                                          protection from risks associated with
                                                                                       that the nation’s banks operate                        e-banking, ensure that examinations
•   Apr 07 - Sept 07             27.2
                                                                                  20   safely and soundly takes the form of                   adequately consider the reliability
                          12.8                                                         audits, investigations, evaluations,                   of appraisals and sufficiency of
                                                                                  0    and extensive communication and                        insurance coverage when evaluating
                                                                                       coordination with FDIC divisions and                   an institution’s lending activities, and
                                                                                       offices, law enforcement agencies,                     strengthen the supervisory approach

                                                                                          Office of Inspector General – Semiannual Report to the Congress – 2007 Performance
                                                                                                                                                                 Performance Report
                                                                                                                                                                             Report 57
 for ensuring financial institution               owner and chief executive officer and        Goal 2: Help the FDIC Maintain                  Goal 3: Consumer Protection:
 compliance with Office of Foreign                chairman of the board of directors, the      the Viability of the Insurance Fund             Assist the FDIC to Protect Consumer
 Assets Control compliance programs.              former president and director, and the                                                       Rights and Ensure Customer Data
                                                                                                 Audit work related to the FDIC’s
 We continued work on the FDIC’s                  former chief financial officer were found                                                    Security and Privacy
                                                                                               dedicated examiner program
 evaluation of institution compliance             guilty of 15 felony counts of fraud and      confirmed that the Corporation’s                  Audits and investigations contributed
 with the anti-money laundering and               conspiracy related to BestBank’s $248        Dedicated Examiner Program is                   to the FDIC’s protection of consumers
 terrorist financing provisions of the            million failure in 1998. The former          contributing to the FDIC’s efforts to           in several ways. We issued a report
 USA PATRIOT Act. We also audited                 president and director and the former        assess and quantify the risks posed             on information technology (IT)
 examination procedures for assessing             chief financial officer were sentenced       by large institutions to the Deposit            examination coverage of financial insti-
 controls to protect customer and                 to 90 months of incarceration, to be         Insurance Fund. Given that the FDIC             tutions’ oversight of technology service
 consumer information at multi-regional           followed by 3 years of supervised            is not generally the primary federal            providers and made recommenda-
 data processing servicers.                       release and 72 months of incarceration,      regulator for the largest financial             tions to help in protecting customers
                                                  to be followed by 3 years of supervised      institutions, this program has placed           from identity theft and institutions from
   With respect to investigative work,
                                                  release, respectively. The judge did not     dedicated examiners in the six largest          fraud and reputational and other risks
 as a result of cooperative efforts with
                                                  order restitution but ordered forfeitures    insured depository institutions to work         associated with unauthorized access
 U.S. Attorneys throughout the country,
                                                  of $4.7 million for the former president     in cooperation with primary supervisors         to or use of customer information.
 numerous individuals were prosecuted
                                                  and director and more than $92,000           and bank personnel to obtain real-              As a result of audit work related
 for financial institution fraud, and
                                                  for the former chief financial officer.      time access to information about the            to amendments to Community
 we achieved successful results in
 combating a number of emerging                     As for mortgage frauds, particularly       risk and trends in those institutions.          Reinvestment Act regulations, we
 mortgage fraud schemes during the                noteworthy results include the stiff         Similarly, we reported positive results         suggested strengthened examiner
 fiscal year. Particularly noteworthy             sentencings of the former senior vice        related to the Shared National Credit           guidance for implementing and
 results include a restitution order in the       president of mortgage operations at          program, an interagency program to              reporting on community development
                                                                                               provide periodic credit risk assessment         tests and development of a strategy for
 aggregate amount of $31.7 million                nBank and two mortgage brokers for
                                                                                               of large, complex credits held or               measuring the impact of amendments
 that was issued in connection with our           defrauding the bank of nearly $11
                                                                                               agented by supervised institutions.             to the regulations. We issued a report
 investigation of Hamilton Bank and               million. In another case, a defendant
                                                                                                                                               on the FDIC’s assessment of insti-
 bank fraud on the part of former bank            was convicted in an $11 million                We would also note that all of the
                                                                                                                                               tutions’ compliance management
 officers. The restitution was ordered            mortgage loan fraud in New York.             OIG’s investigative results described
                                                                                                                                               systems, reporting that FDIC examiners
 on the former chairman of the board              Another of our investigations led to         in support of Goal 1 above also
                                                                                                                                               had adequately assessed the key
 and chief executive officer, and his             the convictions of a former Wall Street      support the Corporation in its efforts to
                                                                                                                                               components of institution compliance
 codefendants, the former president and           executive and a co-conspirator in a          maintain the viability of the insurance
                                                                                                                                               management systems–the board of
 the former chief financial officer of the        $12 million securities fraud conspiracy.     fund.
                                                                                                                                               directors and management oversight,
 failed bank. In another significant case,        These individuals were ordered to                                                            the compliance program, and periodic
 in the U.S. District Court for the District      pay back nearly all of that amount in                                                        compliance audits.
 of Colorado, the former BestBank                 restitution to the government.

                                                                     2007Performance
58 Office of Inspector General – Semiannual Report to the Congress – 2007 PerformanceReport
                                                                                      Report      Office of Inspector General – Semiannual Report to the Congress – 2007 Performance
                                                                                                                                                                         Performance Report
                                                                                                                                                                                     Report 59
   From an investigative standpoint,              in response. We also continued to            ensure appropriate use of information           internal operations through ongoing
 our Electronic Crimes Unit (ECU)                 monitor the FDIC’s Strategic Readiness       in an identifiable form and enhanced            OIG Hotline referrals, investigations of
 responded to phishing schemes where              Project to gain a better understanding       protection of sensitive FDIC data,              employee cases, and coordination with
 the FDIC and OIG Websites were                   of the implications of a large bank          strengthen contract administration              the FDIC’s Ethics Office.
 misused to entice consumers to divulge           failure and corresponding resolution         and oversight of IT support services            Goal 6: OIG Internal Processes:
 personal information and success-                scenario and offered OIG perspectives        for the Corporation, and improve                Build and Sustain a High-Quality
 fully shut down several Web sites                in the interest of ensuring the success      information security controls. We also          OIG Work Environment
 used for such purposes. The ECU was              of that corporate initiative.                made suggestions to improve the
 also successful in deactivating Web                                                           IT application services contracting               We focused increased attention on a
 sites and/or fax numbers involving                 We also continued to pursue                                                                number of activities in this goal area
                                                                                               process and recommendations to
 fraudulent claims of FDIC insurance              concealment of assets investiga-                                                             throughout the fiscal year. We held an
                                                                                               enhance the FDIC’s performance
 or affiliation. In that connection, we           tions related to the more than $1.7                                                          OIG-wide conference, the theme of
                                                                                               measurement processes.
 also continued to monitor the progress           billion in criminal restitution that the                                                     which was Change, Challenge, Choices
 of H.R. 2547, The FDIC Enforcement               FDIC is owed. In connection with one           We issued the results of our review           to engage all OIG employees in the
 Enhancement Act, a bill to amend                 such case worked in conjunction with         of a comprehensive review of the                strategic and performance goals and
 the Federal Deposit Insurance Act                the FDIC Legal Division, the former          FDIC’s information security program             efforts of the OIG. As part of that
 to prevent misrepresentation about               chief executive officer of Sunbelt           and practices, in accordance with               conference, Office of Audits and Office
 deposit insurance coverage, and for              Savings and Loan, Dallas, Texas, was         the Federal Information Security                of Evaluations staff received training on
 other purposes.                                  sentenced to 97 months of incarcer-          Management Act (FISMA). Our 2007                the 2007 revisions to the Government
                                                  ation and ordered to pay a criminal          report notes strength in the areas              Auditing Standards, and our inves-
 Goal 4: Receivership Management:                 forfeiture of more than $2 million to        of information security governance,             tigative staff received their required
 Help Ensure that the FDIC is                     the U.S. government and restitution of       incident response, and awareness                Legal Update training. We encouraged
 Ready to Resolve Failed Banks and                more than $300,000 to the FDIC.              training. It also identifies steps the          individual growth through profes-
 Effectively Manages Receiverships                                                             Corporation can take to strengthen
                                                  Goal 5: FDIC Resources                                                                       sional development by way of initiatives
   We completed an assignment to                                                               security controls in the priority areas         such as training and development and
                                                  Management: Promote Sound
 evaluate the design and implemen-                                                             of access control; identification and           career development plans for OIG
                                                  Governance and Effective
 tation of selected controls established                                                       authentication; certification, accredi-         staff, expanding the OIG mentoring
                                                  Stewardship and Security of
 by the Division of Resolutions and                                                            tation, and security assessments; risk          program, and offering opportunities for
                                                  Human, Financial, IT, and Physical
 Receiverships to safeguard sensitive                                                          assessment; personnel security; and             OIG staff to attend graduate schools
                                                  Resources
 information collected and maintained                                                          audit and accountability. In a related          of banking. We strengthened human
 in electronic form in resolution and               We issued a number of audit and            FISMA product, we reported that                 capital management and leadership
 receivership activities at FDIC-insured          evaluation reports in this goal area         the FDIC continues to take action to            development by developing and imple-
 institutions. We made four recommen-             and made recommendations to                  safeguard its personally identifiable           menting end-of-assignment feedback
 dations to address vulnerabilities, and          strengthen contract planning and             information and related systems.                mechanisms for staff, and incorpo-
 the Corporation took prompt action               management for business continuity,          We also promoted integrity in FDIC              rating leadership training in training

                                                                     2007Performance
60 Office of Inspector General – Semiannual Report to the Congress – 2007 PerformanceReport
                                                                                      Report      Office of Inspector General – Semiannual Report to the Congress – 2007 Performance
                                                                                                                                                                         Performance Report
                                                                                                                                                                                     Report 61
                                                                                                            Quantitative Performance Summary - Fiscal Year 2007
                                                                                                                                                    FY 2007          FY 2007
                                                                                                        Performance Measure                                                             Status
                                                                                                                                                     Target           Actual
                                                                                                Financial Benefit Return1                             100%             454%             Met
 and development plans. To ensure                 in the 2007 revision to Government            Other Benefits2                                        100              131             Met
 the safety and security of OIG staff,            Auditing Standards, process changes           Past Recommendations Implemented3                      95%              96%             Met
 resources, and operations, we updated            resulting from an internal assignment                                                                                              Substantially
 and strengthened the OIG’s business              management review, and external               Audit/Evaluation Reports Issued                          26              23
                                                                                                                                                                                        Met
 continuity and emergency preparedness            peer review results. To ensure cost-          Audit/Evaluation Assignments
 plans and procedures.                            effective and secure IT, we continued         Completed Within 30 Days of                             90%             50%             Not Met
   Our office continued to foster positive        to coordinate closely with the FDIC’s         Established Milestones
 stakeholder relationships by way of              Division of Information Technology. We
                                                                                                Investigation Actions4                                  120             216                Met
 OIG Executives’ meetings with FDIC               also completed a laptop replacement
                                                  project in OIG headquarters and               Closed Investigations Resulting in
 Executives; presentations at Audit                                                                                                                                                  Substantially
                                                  field offices. We took steps to identify      Reports to Management, Convictions,                     80%             78%
 Committee meetings; Congressional                                                                                                                                                      Met
                                                  and evaluate options to streamline,           Civil Actions, or Administrative Actions
 interaction; coordination with financial
 regulatory OIGs, other members of                enhance, and improve collection and           Investigations Accepted for Prosecution
                                                                                                                                                                                     Substantially
 the Inspector General community,                 reporting of information to manage            Resulting in Convictions, Pleas, and/or                 70%             66%
                                                                                                                                                                                        Met
 other law enforcement officials, and             OIG audits and evaluations. We                Settlements
 the Government Accountability Office.            implemented upgrades to the OIG’s             Investigations Referred for Prosecution
 New members of the OIG employee                  training system and updated the OIG’s         or Closed Within 6 Months of Opening                    85%             93%                Met
 Advisory Group took office and met               internal Business Plan 2007 Dashboard         Case
 regularly throughout the year. We also           to capture progress on achievement of         Closing Reports Issued to Management
 maintained and updated the OIG                   strategic and performance goals.                                                                                                   Substantially
                                                                                                Within 30 Days of Completion of All                    100%             92%
 Web site to provide easily accessible                                                                                                                                                   Met
                                                    With respect to planning and                Judicial Actions
 information to stakeholders interested           performance measurement, in                  1 Includes all financial benefits, including audit-related questioned costs; recommendations for
 in our office and the results of our             formulating our Business Plan for 2008,      	 better use of funds; and investigative fines, restitution, settlements, and other monetary recoveries
 work.                                            we conducted a series of meetings            	 divided by OIG’s total fiscal year budget obligations.
   Our Office of Audits conducted                 to ensure appropriate audit and              2 Benefits to the FDIC that cannot be estimated in dollar terms which result in improved services;

 internal quality control reviews and             evaluation coverage and investigative        	 statutes, regulations, or policies; or business operations and occurring as a result of work that the
                                                  activity to address the risks at the FDIC    	 OIG has completed over the past several years. Includes outcomes from implementation of OIG
 underwent a peer review conducted
                                                                                               	 audit/evaluation recommendations.
 by the Department of State OIG, and              and in the financial services industry.
                                                                                               3 Fiscal year 2005 recommendations implemented by fiscal year-end 2007.
 our Office of Investigations conducted           These included outreach sessions
 internal quality control reviews of the          and other meetings with many FDIC            4 Indictments, convictions, informations, arrests, pre-trial diversions, criminal non-monetary
 Chicago and Dallas Office investi-               Divisions and Office representatives.        	 sentencings, monetary actions, employee actions, and other administrative actions.
 gative operations. Office of Audits              We also focused on carefully tracking         As noted in the table above, we did not meet our timeliness goal for audit and
 began work to revise audit policies              costs and integrating budget consider-       evaluation completion. We intend to devote increased attention to that goal area
 and procedures to address changes                ations in our planning activities.           during fiscal year 2008.

                                                                     2007Performance
62 Office of Inspector General – Semiannual Report to the Congress – 2007 PerformanceReport
                                                                                      Report      Office of Inspector General – Semiannual Report to the Congress – 2007 Performance
                                                                                                                                                                         Performance Report
                                                                                                                                                                                     Report 63
 Reporting                                                                                                                                                     Information
 Requirements                                                                                                                                                  Required by the
                                                                                                                                                               Inspector General
                                                                                                                                                               Act of 1978, as
                                                                                                                                                               amended




                                                                                                                Review of Legislation and Regulations
  Index of Reporting Requirements - Inspector General Act of 1978, as                                             The FDIC OIG is tasked under the Inspector General Act of 1978 with reviewing
  amended                                                                                                       existing and proposed legislation and regulations relating to programs and operations
                                                                                                                of the Corporation and making recommendations in the semiannual reports required by
  Reporting Requirements	                                                                            Page       section 5(a) concerning the impact of such legislation or regulations on the economy and
  Section 4(a)(2): Review of legislation and regulations...................................65                   efficiency in the administration of programs and operations administered or financed by
                                                                                                                the Corporation or the prevention and detection of fraud and abuse in its programs and
  Section 5(a)(1): Significant problems, abuses, and deficiencies................. 11-50                        operations. The Office of Counsel has been following the status of various bills relating
                                                                                                                to the Inspector General Community, particularly bills that would require some or all
  Section 5(a)(2): Recommendations with respect to significant problems,
                                                                                                                Inspectors General to perform audits regarding particular areas of agency operations,
    abuses, and deficiencies..................................................................... 11-50
                                                                                                                as well as a bill passed by the House of Representatives, forwarded to the Senate and
  Section 5(a)(3): Recommendations described in previous semiannual                                             referred to the Senate Banking Committee that would give the FDIC significant new
    reports on which corrective action has not been completed................... 66-67                          enforcement authority with regard to misuses of the FDIC’s name and logo. We are
                                                                                                                also monitoring bills related to the Freedom of Information Act. However, we have not
  Section 5(a)(4): Matters referred to prosecutive authorities........................... 10
                                                                                                                provided written comments on those bills to Congress. The Office of Counsel reviewed
  Section 5(a)(5) and 6(b)(2): Summary of instances where requested                                             and provided comments on draft FDIC directives related to FDIC Procedures for
    information was refused...........................................................................70        Processing Section 515 Requests for Information Correction, Records Management, Data
                                                                                                                Stewardship Program, Digital Library, Suitability of Contractors, and Ethics.
  Section 5(a)(6): Listing of audit reports........................................................68
                                                                                                                Table I: Significant Recommendations From Previous Semiannual Reports
  Section 5(a)(7): Summary of particularly significant reports...................... 11-50                      on Which Corrective Actions Have Not Been Completed
  Section 5(a)(8): Statistical table showing the total number of audit                                            This table shows the corrective actions management has agreed to implement but
    reports and the total dollar value of questioned costs.................................69                   has not completed, along with associated monetary amounts. In some cases, these
                                                                                                                corrective actions are different from the initial recommendations made in the audit
  Section 5(a)(9): Statistical table showing the total number of audit
                                                                                                                reports. However, the OIG has agreed that the planned actions meet the intent of
    reports and the total dollar value of recommendations that funds be
                                                                                                                the initial recommendations. The information in this table is based on (1) information
    put to better use......................................................................................70
                                                                                                                supplied by FDIC’s Office of Enterprise Risk Management (OERM) and (2) the OIG’s
  Section 5(a)(10): Audit recommendations more than 6 months old                                                determination of closed recommendations for reports issued after March 31, 2002.
    for which no management decision has been made...................................70                         These 15 recommendations from 11 reports involve improvements in operations and
                                                                                                                programs. OERM has categorized the status of these recommendations as follows:
  Section 5(a)(11): Significant revised management decisions during
    the current reporting period.....................................................................70         Management Action in Process: (15 recommendations from 11 reports)

  Section 5(a)(12): Significant management decisions with which the                                               Management is in the process of implementing the corrective action plan, which may
    OIG disagreed.......................................................................................70      include modifications to policies, procedures, systems, or controls; issues involving
                                                                                                                monetary collection; and settlement negotiations in process.

64 Office of Inspector General – Semiannual Report to the Congress                                                                               Office of Inspector General – Semiannual Report to the Congress 65
   Table I: Significant Recommendations From Previous Semiannual
   Reports on Which Corrective Actions Have Not Been Completed                                                             Table I: Significant Recommendations From Previous Semiannual
                                                                                                                           Reports on Which Corrective Actions Have Not Been Completed (cont.)
                                                                               Brief Summary of Planned
                                              Significant
       Report Number, Title &                                                  Corrective Actions and                                                                  Significant                       Brief Summary of Planned
                                              Recommendation                                                                   Report Number, Title &
       Date                                                                    Associated Monetary                                                                     Recommendation                    Corrective Actions and
                                              Number                                                                           Date
                                                                               Amounts                                                                                 Number                            Associated Monetary Amounts
       Management Action In Process
                                                                                                                               Management Action in Process
       05-016                                 1u                               Ensure that division and office
       Security Controls Over the                                              directors provide FDIC employees                EVAL-06-026                             3                                 Establish firm target dates and devote
       FDIC’s Electronic Mail                                                  and contractors with sufficiently               FDIC’s Contract                                                           dedicated resources for completing
       (E-Mail) Infrastructure                                                 detailed guidance to facilitate                 Administration                                                            the Acquisition Policy Manual and
       March 31, 2005                                                          informed decisions on when                      September 29, 2006                                                        related contracting documents,
                                                                               to encrypt sensitive e-mail                                                                                               contract clauses, and provisions.
                                                                               communications.                                                                         13                                Define requirements for the new
       EVAL-06-005                            1n                               Develop and issue an overarching                                                                                          automated procurement system,
       FDIC Safeguards Over                                                    privacy policy for safeguarding                                                                                           including to address the New Financial
       Personal Employee                                                       personal employee information.                                                                                            Environment shortcomings identified in
       Information                                                                                                                                                                                       this report.
                                              15 n                             Revise FDIC Circular 1360.17,
       January 6, 2006                                                                                                                                  1              1                                Enhance
                                                                                                                                                                                                   Enhance        the FDIC’s
                                                                                                                                                                                                             the FDIC's       privacy
                                                                                                                                                                                                                        privacy         program
                                                                                                                                                                                                                                  program
                                                                               Information Technology Security                 07-003
                                                                                                                               FDIC's Compliance                                                        by integrating key ongoing
                                                                                                                                                                                                   by integrating key ongoing and      and
                                                                               Guidance for FDIC Procurements/
                                                                                                                               With Section 522 of the                                                  planned
                                                                                                                                                                                                   planned        program
                                                                                                                                                                                                             program       activities
                                                                                                                                                                                                                      activities into ainto a
                                                                               Third Party Products to include
                                                                                                                               Consolidated Appropriations                                              formally
                                                                                                                                                                                                   formally      documented
                                                                                                                                                                                                            documented    plan.plan.
                                                                               security expectations and encryption
                                                                               requirements for contractors and                Act, 2005
                                                                               vendors.                                        January 10, 2007
                                                                                                                               07-004                                  2n                                Strengthen the oversight process
                                                                                                                               Interagency Agreement                                                     for proposed contract modifications
       EVAL-06-014                            5                                Issue guidance clarifying corporate             With the General Services                                                 involving significant reallocation of
       FDIC’s Industrial Loan                                                  expectations for deposit insurance              Administration for the                                                    contract funding.
       Company Deposit Insurance                                               investigations and emphasizing that             Infrastructure Services
       Application Process                                                     examiners should document the                   Contract
       July 20, 2006                                                           basis for their conclusions in the              January 10, 2007
                                                                               ROI.
                                                                                                                               07-005                                  1n                                Revise the Information Technology-
       06-023                                 1n                               Revise the Compliance Examination               Information Technology                                                    Risk Management Program guidance
       Examiner Use of Home                                                    Manual guidance to specify when                 Examination Coverage                                                      to ensure that examiners adequately
       Mortgage Disclosure Act                                                 and how errors and omissions of                 of Financial Institutions'                                                assess financial institution compliance
       (HMDA) Data to Identify                                                 current year HMDA data should be                Oversight of Technology                                                   with the Interagency Guidelines
       Potential Discrimination                                                reported in compliance examination              Service Providers (TSPs)                                                  provision pertaining to the oversight
       September 28, 2006                                                      reports.                                        February 5, 2007                                                          of TSPs.
                                              2n                               Provide additional examination                  07-008                       1                                            Enhance examiner guidance to ensure
                                                                               guidance on how to determine and                FDIC's Implementation of the                                              examiners provide complete support
                                                                               document third-party residential                2005 Amendments to the                                                    in the performance evaluation reports
                                                                               mortgage lending relationships for              Community Reinvestment Act                                                for their conclusions for the community
                                                                               HMDA-reporting purposes.                        (CRA) Regulations                                                         development test.
       06-024                        1n                                        Strengthen guidance related to the              March 30, 2007
       Division of Supervision                                                 monitoring and follow-up processes                                                      3n                                Develop a strategy for measuring
       and Consumer Protection’s                                               for compliance violations.                                                                                                CRA activities as a result of the
       Supervisory Actions Taken for                                                                                                                                                                     amendments made to the regulations.
       Compliance Violations
       September 29, 2006                                                                                                      u	 The OIG has received some information but has requested additional information to evaluate management’s actions in 	
       06-025                                 3u                               Develop a written plan that defines         	      response to the recommendation.
       Controls for Monitoring                                                 a risk-based, enterprise-wide                   n	 The OIG has not yet evaluated management’s actions in response to the OIG recommendation.
       Access to Sensitive                                                     approach to audit logging and
       Information Processed by                                                monitoring for the FDIC's portfolio
       FDIC Applications                                                       of information systems.
       September 29, 2006

       u	The OIG has received some information but has requested additional information to evaluate management’s actions
   	     in response to the recommendation.

       n	The OIG has not yet evaluated management’s actions in response to the OIG recommendation.


66 Office of Inspector General – Semiannual Report to the Congress                                                                                                     Office of Inspector General – Semiannual Report to the Congress 67
    Table II: Audit Reports Issued by Subject Area                                                Table III: Evaluation Reports and Memoranda Issued

                     Audit Report                       Questioned Costs                          Number and Date                    Title
                                                                                   Funds Put to
      Number and                                                                    Better Use    Evaluation Reports
                                   Title               Total         Unsupported
        Date                                                                                      EVAL-07-002                        FDIC’s Use of Performance Measures
     Insurance                                                                                    May 2, 2007
     AUD-07-011         FDIC’s Dedicated                                                          EVAL-07-003                        Information Technology Application Services Contracting
     September 13,      Examiner Program for                                                      May 30, 2007                       Process
     2007               Large Insured Depository                                                  Evaluation Memoranda
                        Institutions
                                                                                                  EM-07-002                          Classifying Salary Costs in the New Financial Environment
     AUD-07-012         FDIC’s Participation in the                                               May 8, 2007                        and Implementing Cost Management Reporting
     September 13,      Shared National Credit
                                                                                                  EM-07-003                          Follow-up Work Related to the FDIC’s Contract Assessment
     2007               Program
                                                                                                  May 30, 2007                       Work
     Consumer Protection
                                                                                                  EM-07-004                          Risk Designation Levels for Information Technology Staff and
     AUD-07-015         DSC’s Examination                                                         August 16, 2007                    Privacy Act Contract Clauses in FDIC Contracts
     September 26,      Assessment of Financial
     2007               Institutions’ Compliance
                        Management Systems
                                                                                                  Table IV: Audit Reports Issued with Questioned Costs
     Receivership Management
     AUD-07-010         Division of Resolutions                                                                                                                       Questioned Costs
     September 5,       and Receiverships                                                                                                         Number
     2007               Protection of Electronic                                                                                                                     Total       Unsupported
                        Records                                                                   A. For which no management decision                 0                 0                0
     Resources Management                                                                         	 has been made by the commencement
                                                                                                  	 of the reporting period.
     AP-07-001          Information Technology
     May 11, 2007       Events Analysis                                                           B. Which were issued during the reporting           0                 0                0
                                                                                                  	 period.
     AUD-07-013         Response to Privacy
     September 26,      Program Information                                                       Subtotals of A & B                                  0                 0                0
     2007               Request in OMB’s Fiscal                                                   C. For which a management decision                  0                 0                0
                        Year 2007 Reporting                                                       	 was made during the reporting period.
                        Instructions for FISMA
                        and Agency Privacy                                                        	 (i) dollar value of disallowed costs.             0                 0                0
                        Management                                                                	 (ii) dollar value of costs not disallowed.        0                 0                0
     AUD-07-014         Independent Evaluation                                                    D. For which no management decision                 0                 0                0
     September 27,      of the FDIC’s Information                                                 	 has been made by the end of the
     2007               Security Program - 2007                                                   	 reporting period.
     Totals for the Period                              $0               $0            $0         	 Reports for which no management                   0                 0                0
                                                                                                  	 decision was made within 6 months of
                                                                                                  	 issuance.




68 Office of Inspector General – Semiannual Report to the Congress                                                                Office of Inspector General – Semiannual Report to the Congress 69
                                                                                                                                     Farewells


                                                                                               Alan Butler
                                                                                                 Alan Butler retired after 33 years of federal service. His career began
 Table V: Audit Reports Issued with Recommendations for Better Use of                          in 1974 as an accountant with the Department of Housing and Urban
 Funds                                                                                         Development then progressed to service as an auditor in the FDIC’s Office of
                                                                                               Corporate Audits and Internal Investigations in 1985. Later he was promoted
                                                                     Number     Dollar Value   to a senior auditor position, and in 1991, he was reassigned as a criminal
  A. For which no management decision has been made by the             0                 0     investigator and promoted to a senior criminal investigator in the FDIC Office
  	 commencement of the reporting period.
                                                                                               of Investigations, a position he held with distinction for nearly 16 years.
  B. Which were issued during the reporting period.                    0                 0
                                                                                                Throughout the years, he played a key role in carrying out the OIG mission
  Subtotals of A & B                                                   0                 0
                                                                                               at the FDIC. His versatile background served him well in his efforts to
  C. For which a management decision was made during the               0                 0
  	 reporting period.
                                                                                               promote economy, efficiency, effectiveness, and integrity in a number of FDIC
                                                                                               programs and operations.
  	 (i) dollar value of recommendations that were agreed to            0                 0
  		 by management.                                                                              Alan’s work involving the Bank of Alamo, Alamo, TN is a prime example
  	     - based on proposed management action.                         0                 0     of his success. He worked tirelessly over the past several years on this case
  	     - based on proposed legislative action.                        0                 0     involving a highly complex bank fraud perpetrated by a group of individuals
  	 (ii) dollar value of recommendations that were not agreed          0                 0     in rural Tennessee. A former Director and Chairman of the Board and the
  		 to by management.                                                                         President and Chief Executive Officer of the Bank were indicted along with
  D. For which no management decision has been made by the             0                 0     four bank customers on charges of conspiracy, money laundering, and bank
  	 end of the reporting period.                                                               fraud. Several of the defendants entered guilty pleas, and Alan’s efforts were
  	   Reports for which no management decision was made                0                 0     instrumental in the results of this case.
  	   within 6 months of issuance.

                                                                                               John English
 Table VI: Status of OIG Recommendations Without Management
                                                                                                 John English retired in October 2007, after a federal career that began in
 Decisions
                                                                                               April 1984 as an Audit Specialist with the U.S. Department of Agriculture,
 During this reporting period, there were no recommendations more than 6 months old without    then progressed to service for the Resolution Trust Corporation, and finally,
 management decisions.                                                                         the FDIC. His career included work in a number of critically important areas,
 Table VII: Significant Revised Management Decisions                                           such as Financial Management Programs, Automated Data Processing
 During this reporting period, there were no significant revised management decisions.
                                                                                               Operations, Legal Services, and Information Technology Security and Privacy
                                                                                               Program Operations. Since 1995, when he was assigned to the FDIC’s OIG in
 Table VIII: Significant Management Decisions with Which the OIG                               Chicago, he worked on a number of progressively more difficult assignments.
 Disagreed
                                                                                                During all of his assignments, he formed exceptional working relation-
 During this reporting period, there were no significant management decisions with which the   ships with agency officials and was genuinely respected by his colleagues.
 OIG disagreed.
                                                                                               Of special note, his leadership, diligence, and innovation as the Auditor-in-
 Table IX: Instances Where Information Was Refused                                             Charge in planning, conducting, and reporting on the FDIC’s information
 During this reporting period, there were no instances where information was refused.          security program and practices greatly improved the security and effectiveness
                                                                                               of the Corporation’s business operations. His hard work and dedication to the
                                                                                               success of all of the assignments he led will have a long-term, positive impact
                                                                                               on the future operations of the Corporation.


70 Office of Inspector General – Semiannual Report to the Congress                                                     Office of Inspector General – Semiannual Report to the Congress 71
 Pictured left to right: Brian Smith, Special Agent,
 FBI; John Lucas, Special Agent FDIC OIG;
 Virginia Wright, Special Agent, FBI; Steve Hall,
 Financial Crimes Specialist, FDIC DRR




 Congratulations                                         Joining John, Patrick, and Steven,
                                                       were the other members of the
   The OIG congratulates Special                       Universal investigative/prosecution
 Agents John Lucas and Patrick Collins,                team:
 who received an award for excellence
 from the President’s Council on                           • Brian Smith, Special Agent, FBI,
 Integrity and Efficiency in October                   	     Chicago, Illinois
 2007. John and Patrick, along with                        • Edward G. Kohler, Assistant United
 Financial Crimes Specialist Steven                    	     States Attorney, Northern District of
 Hall, one of our FDIC colleagues                      	      Illinois
 from the Division of Resolutions and
 Receiverships in Dallas, were members                  • Robert W. Kent, Assistant United
 of a team whose outstanding efforts                   	 States Attorney, Northern District of
 culminated in the prosecution of                      	 Illinois
 three individuals whose fraud scheme                      • Virginia H. Wright, Special Agent,
 resulted in the failure of Universal                  	     FBI, Chicago, Illinois
 Federal Savings Bank (Universal),
 Chicago, Illinois. All three subjects
 in the investigation pleaded guilty,
 received stiff fines, and made
 restitution to the FDIC and others for
 their criminal activity. The successful
 results of this white-collar crime case
 came about because of the dedication
 of a number of individuals from
 different agencies determined to work
 together to protect the integrity of the
 nation’s banking system.




72 Office of Inspector General – Semiannual Report to the Congress
